Semiannual Report to Congress




Treasury Inspector General for Tax Administration

        October 1, 2004 through March 31, 2005
        MEET TIGTA’S NEW INSPECTOR GENERAL




                           J. Russell George being sworn in as the new Treasury
                                 Inspector General for Tax Administration

Following his nomination by President George W. Bush, the United States Senate conﬁrmed
J. Russell George in November 2004, as the Treasury Inspector General for Tax Administration.
Prior to assuming this role, Mr. George served as the Inspector General of the Corporation for
National and Community Service, having been nominated to that position by President Bush and
conﬁrmed by the Senate in 2002.

A native of New York City, where he attended public schools, including Brooklyn Technical High
School, Mr. George received his Bachelor of Arts degree from Howard University in Washington,
DC, and his Doctorate of Jurisprudence from Harvard University’s School of Law in Cambridge,
MA. After receiving his law degree, he returned to New York and served as a prosecutor in the
Queens County District Attorney’s Ofﬁce.

Following his work as a prosecutor, Mr. George joined the Counsel’s Ofﬁce in the White House
Ofﬁce of Management and Budget where he was Assistant General Counsel. In that capacity, he
provided legal guidance on issues concerning presidential and executive branch authority. He was
next invited to join the White House Staff as the Associate Director for Policy in the Ofﬁce of
National Service. It was there that he implemented the legislation establishing the Commission ffor
National and Community Service, the precursor to the Corporation for National and Community Service.
He then returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel LLP.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on Government
Reform and Oversight and served as the Staff Director and Chief Counsel of the Government
Management, Information and Technology subcommittee (later renamed the Subcommittee on
Government Efﬁciency, Financial Management and Intergovernmental Relations), chaired by
Representative Stephen Horn. There he directed a staff that conducted over 200 hearings on
legislative and oversight issues pertaining to Federal Government management practices, including
procurement policies, the disposition of government-controlled information, the performance
of chief ﬁnancial ofﬁcers and inspectors general, and the Government’s use of technology. He
continued in that position until his appointment by President Bush in 2002.
Semiannual Report to Congress




Treasury Inspector General for Tax Administration


          October 1, 2004 through March 31, 2005
      NORTHEAST ELEVATION OF THE TREASURY BUILDING, CIRCA 1910




       The photographs and artwork appearing in this Semiannual Report to Congress
     are from the Treasury Curator’s "Postcard Collection" and date from 1900 to 1940.
        Cover photo: Department of the Treasury, Printing & Graphics Division.




ii
                                                                                                                              Table of Contents




                                   TABLE OF CONTENTS

Message from TIGTA’s Inspector General .............................................................................                          1

TIGTA’s Profile .........................................................................................................................     3
        Statutory Mandate ...........................................................................................................         3
        Organizational Structure .................................................................................................            4
        Authorities .......................................................................................................................   4
        TIGTA Office Locations Throughout The Nation ..........................................................                               5

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................                                                     7
        Systems Modernization ...................................................................................................              7
        Tax Compliance Initiatives .............................................................................................               8
        Security of the IRS ..........................................................................................................        11
        Providing Quality Customer Service Operations ............................................................                            12
        Erroneous Payments .......................................................................................................            13
        Processing Returns and Implementing Tax Law Changes ..............................................                                    14
        Human Capital ................................................................................................................        16

Protect the Integrity of Tax Administration ........................................................................ 19
        Employee Integrity .......................................................................................................... 21
        Employee and Infrastructure Security ............................................................................. 23
        External Attempts to Corrupt Tax Administration .......................................................... 24

Special Achievements ................................................................................. 29

Audit Statistical Reports ......................................................................................................... 30
        Audit Reports with Questioned Costs ............................................................................. 30
        Reports with Recommendations That Funds Be Put to Better Use ................................. 31
        Reports with Additional Quantifiable Impact on Tax Administration ............................ 32

Investigations Statistical Reports .......................................................................................... 35
        Complaints/Allegations Received by TIGTA .................................................................                            35
        Status of Complaints/Allegations Received by TIGTA ..................................................                                 35
        Investigations Opened and Closed ..................................................................................                   35
        Financial Accomplishments ............................................................................................                35
        Status of Closed Criminal Investigations ........................................................................                     36
        Criminal Dispositions ......................................................................................................          36
        Administrative Disposition on Closed TIGTA Investigations ........................................                                    37




                                                                                                                                                   iii
Table of Contents



Appendices

Appendix I - Statistical Reports – Other ................................................................................ 39
          Audit Reports with Significant Unimplemented Corrective Actions .............................. 39
          Statistical Reports - Other ............................................................................................... 46

Appendix II - Audit Products ................................................................................................... 47
          October 1, 2004 - March 31, 2005 .................................................................................. 47

Appendix III – TIGTA’s Statutory Reporting Requirements .................................................. 51

Appendix IV - Section 1203 Standards .................................................................................. 55

Appendix V - Data Tables Provided by the IRS (Employee Misconduct Reports) .............. 57
          IRS Memorandum ...........................................................................................................     57
          Report of Employee Misconduct for the Period 10/01/04 - 3/31/05
          Summary by Disposition Groups ....................................................................................             58
          Report of Employee Misconduct for the Period 10/01/04 - 3/31/05
          National Summary ...........................................................................................................   59
          Summary of Substantiated §1203 Allegations Recorded in ALERTS
          for the Period 10/01/04 - 3/31/05 ....................................................................................         60




     iv
                                                                               Message from TIGTA’s
                                                                              Inspector General




                            MESSAGE FROM TIGTA’S
                             INSPECTOR GENERAL




T
      he operation of our nation’s government depends on the collection of tax revenue. With
     the fiscal constraints presently facing the entire Federal Government, TIGTA’s role of
     promoting the efficiency and effectiveness of tax administration, and safeguarding the
collection of taxes is as important as ever.

I was confirmed by the Senate as TIGTA’s new Inspector General during the first half of this
semiannual reporting period. Since that time, I have identified several priorities for TIGTA:

  • Maintain our focus on overseeing Internal Revenue Service (IRS) efforts to
    modernize its business systems;
  • Enhance our ability to protect tax administration from corruption;
  • Assist the IRS with improving tax compliance initiatives; and
 • Monitor IRS usage of private debt collection agencies.

In addition to these priorities, TIGTA will continue its work in other areas, including issues
related to the security of IRS employees, facilities, and information systems; the prevention
of erroneous and improper payments by the IRS; the IRS’ processing of tax returns and
implementation of tax law changes; customer service; and the integration of performance and
financial management at the IRS, to name a few. These are all important oversight activities
that will continue to be pursued vigilantly.

I am proud to report that a TIGTA recommendation to require large companies and tax-exempt
organizations to file their returns electronically became law during this reporting period.
This will take effect in the 2005 Tax Year and will apply to businesses with assets exceeding
$50 million and tax-exempt organizations with assets exceeding $100 million. The $50 million
and $100 million thresholds will be lowered over time.

Also, between October 1, 2004, and March 31, 2005, we identified more than $28.3 million in cost
savings, and more than $12 billion in increased or protected revenue by addressing IRS issues.

TIGTA’s achievements in combating fraud and corruption have enhanced the integrity of tax
administration. Several investigations related to IRS usage of contracted lockbox facilities to
receive and process tax remittances have resulted in significant prosecutions. In one case, six
former employees of Mellon Financial Services were indicted this year in Pennsylvania for



                                                                                                   1
initially hiding, and then destroying, approximately 80,000 unprocessed Federal tax returns,
vouchers, and checks in an attempt to conceal their inability to fulfill their contractual
requirements with the IRS. A second TIGTA investigation revealed that a former lockbox
employee stole 30 taxpayer remittance checks that totaled more than $2.7 million from an
IRS lockbox facility located in Texas. Both investigations illustrate the importance of
monitoring the IRS’ use of private agencies to collect tax remittances or provide debt
collection services.

TIGTA will continue working to protect and improve our nation’s tax administration system.
We are committed to helping the IRS overcome current and future challenges to ensure that
the collection of tax revenue is done with efficiency, effectiveness, and integrity.



                                         Sincerely,


                                     J. Russell George
                                     Inspector General




2
                                                                                      TIGTA’s Profile




                       TIGTA’S PROFILE




T
      he Treasury Inspector General for                addressing the IRS’ management
      Tax Administration (TIGTA)                       challenges, and by implementing the
      provides independent oversight of                President’s Management Agenda and the
Treasury Department matters involving                  priorities of the Department of the Treasury.
IRS activities, the IRS Oversight Board,
and the IRS Office of Chief Counsel.                   Our primary functional offices are the
Although we are placed organizationally in             Office of Audit (OA) and the Office of
the Treasury Departmental Offices and                  Investigations (OI). Our Offices of Chief
report to the Secretary of the Treasury and            Counsel, Information Technology, and
the Congress, we function independently                Management Services support OA and OI
from the Departmental Offices and all other            efforts (see organizational chart, next page).
offices and bureaus within the Department.             TIGTA conducts audits and investigations
                                                       designed to:
Our work is devoted to all aspects of
                                                       •   Promote the economy, efficiency, and
activity related to the Federal tax system as
                                                           effectiveness of tax administration; and
administered by the IRS. We protect the
public’s confidence in the tax system by               •   Protect the integrity of tax
overseeing the IRS as it strives to achieve                administration.
its strategic goals, by identifying and
.




                                    TIGTA’s Statutory Mandate

        Protect against external attempts to corrupt or threaten IRS employees.
        Provide policy direction and conduct, supervise, and coordinate audits and
        investigations related to IRS programs and operations.
        Review existing and proposed legislation and regulations related to
        IRS programs and operations and make recommendations concerning the
        impact of such legislation or regulations.
        Promote economy and efficiency in the administration of tax laws.
        Prevent and detect fraud and abuse in IRS programs and operations.
        Inform the Secretary of the Treasury and Congress of problems and
        deficiencies identified and of the progress made in resolving them.




                                                                                                    3
      TIGTA’s Profile




                          TIGTA’s Organizational Structure



                                             Inspector General




                          Chief Counsel




                                                                   Deputy Inspector
                        Deputy Inspector
                                                                      General for
                        General for Audit
                                                                    Investigations




                     Assistant Inspector                         Assistant Inspector
                   General for Management                      General for Information
                           Services                                  Technology




                                            Authorities


TIGTA has all the authorities granted                 under the internal revenue laws. In
under the Inspector General Act of 1978,              addition, the IRS Restructuring and
as amended.1 TIGTA also has access to                 Reform Act of 1998 (RRA 98)2 amended
tax information in the performance of its             the Inspector General Act of 1978 to give
tax administration responsibilities and the           TIGTA statutory authority to carry
obligation to report potential criminal               firearms, execute and serve search and
violations directly to the Department of              arrest warrants, serve subpoenas and
Justice. TIGTA and the Commissioner of                summonses, and make arrests as set forth
Internal Revenue have established policies            in Section 7608(b)(2) of the Internal
and procedures delineating responsibilities           Revenue Code (I.R.C.).
to investigate potential criminal offenses
                                                      2
                                                          Public Law No. 105-206, 112 Stat. 685 (codified as
                                                          amended in scattered sections of 2 U.S.C., 5
                                                          U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23
                                                          U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
1
    5 U.S.C.A. app. 3 (West Supp. 2004).                  49 U.S.C.).




      4
                                                                         TIGTA’s Profile




               TIGTA Office Locations Throughout
                          The Nation




TIGTA employees include auditors, special agents and information technology support staff
                       who are located throughout the nation.




                                                                                      5
    MAN AND WOMAN “CUTTING” MONEY, 1910




6
                                                             Promote the Economy, Efficiency, and
                                                            Effectiveness of Tax Administration



       PROMOTE THE ECONOMY,
   EFFICIENCY, AND EFFECTIVENESS
       OF TAX ADMINISTRATION


T
        IGTA’s Office of Audit strives to        Audit emphasis is placed on statutory
       promote the economy, efficiency, and      coverage required by the RRA 98, as
       effectiveness of tax administration. We   well as on areas of concern to the
provide audit recommendations to improve         Congress, the Secretary of the Treasury,
IRS systems and operations, while ensuring       the Commissioner of Internal Revenue,
fair and equitable treatment of taxpayers. Our   and other key stakeholders.
comprehensive, independent performance and
financial audits of IRS programs and             The following audit summaries highlight
operations focus on mandated reviews and         significant audits completed during this
high-risk challenges facing the IRS.             6-month reporting period that fall into the IRS’
                                                 Major Management Challenges categories.
The IRS’ implementation of audit
recommendations results in cost savings and      Systems Modernization
increased or protected revenue, reduction of
taxpayer burden, and protection of: taxpayer     The IRS is currently engaged in the
rights and entitlements; taxpayer privacy and    Business Systems Modernization (BSM)
security; and IRS resources.                     Program to modernize its systems and
                                                 associated processes. All of the BSM
Each year, we identify and address the major     projects initiated to date have experienced
management challenges facing the IRS. These      cost overages and schedule delays. In
challenge areas for Fiscal Year (FY) 2005 are    mid-2003, the IRS and the PRIME
outlined in the chart below:                     contractor3 initiated four studies to help
                                                 identify the root causes of these problems
    IRS’ Major Management Challenges             and make recommendations to remedy
   •    Systems Modernization                    them. Key IRS executives and
   •    Tax Compliance Initiatives               stakeholders reviewed the results of these
   •    Security of the IRS                      studies, acknowledged BSM shortcomings,
   •    Integrating Performance and              and developed actions to address the
        Financial Management                     studies’ recommendations and resolve
   •    Complexity of the Tax Law                longstanding BSM issues. Collectively,
   •    Providing Quality Customer
        Service Operations
                                                 these actions became known as the BSM
   •    Erroneous and Improper Payments          Challenges Plan.
   •    Processing Returns and                   3
        Implementing Tax Law Changes                  The PRIME contractor is the Computer Sciences
   •    Taxpayer Protection and Rights               Corporation, which heads an alliance of leading
                                                     technology companies brought together to assist
   •    Human Capital                                with the IRS’ efforts to modernize its computer
                                                     systems and related information technology.



                                                                                                       7
   Promote the Economy, Efficiency, and
   Effectiveness of Tax Administration


We determined that the majority of                 improvement in the BSM Program. The
recommendations were not fully addressed           BSM Office, the contractor, and the end
by the BSM Challenges Plan. Also, the              user were making progress to deploy the
IRS did not create a measurement plan to           CAP. However, the IRS and the CAP
determine whether actions taken resulted,          contractor did not adequately manage
or will result, in actual improvements in          system testing of requirements during its
the BSM Program. Many BSM Challenges               first release. For example, system
Plan actions were closed before all                requirements were not tracked and,
significant activities were completed.             therefore, could not be tested successfully.
                                                   In addition, the IRS approved changes
The BSM Challenges Plan Did Not Completely         without always knowing which system
     Address the 21 BSM-Related Study              requirements were affected and accepted
            Recommendations                        test results that could not be verified. IRS
                                                   management agreed with our
                 3           Not Addressed         recommendations and modified its
        9
                     9
                                                   approach to requirements management for
                             Partially Addressed
                                                   future CAP releases.
                             Fully Addressed       Report Reference No. 2005-20-019


                                                   Tax Compliance Initiatives
We recommended the IRS reevaluate those
recommendations that were not addressed            The Limited Issue Focused Examination
by the BSM Challenges Plan to determine            (LIFE)4 process has merit for reducing the
whether corrective actions should be taken         length of examinations. IRS’ Large and
and create an overall measurement plan to          Mid-Size Business Division statistics
determine whether activities are leading to        showed that LIFE cases, on average, were
BSM Program improvements. The IRS                  completed in 236 fewer days than non-
should also ensure stakeholders understand         LIFE cases. However, efforts to
that additional work is necessary to               incorporate this process into the
complete actions in the Plan, and new              examinations of large businesses have
activities taken in furtherance of the Plan        made little progress. As of September 2004,
should be tracked. IRS management                  only about 4.2 percent of the examinations
agreed with our recommendations and                initiated for large businesses involved the
acknowledged there was significant work            LIFE process.
ahead in the BSM Program.
Report Reference No. 2005-20-014                   TIGTA is concerned by the results from
                                                   the LIFE process. Statistics show LIFE
During this reporting period, TIGTA                cases were generating significantly less
analyzed the Custodial Accounting Project          additional recommended taxes than other
(CAP), which was designed to help correct          large business examinations. Our analysis
longstanding weaknesses in IRS financial
management systems. Our analysis of the            4
                                                       The LIFE was introduced publicly in December 2002
CAP illustrates the continuing need for                as a streamlined alternative to the traditional full-
                                                       scope examination process.




   8
                                                                    Promote the Economy, Efficiency, and
                                                                   Effectiveness of Tax Administration


indicated if the IRS allocated 5 percent of              programming problems, and funding
the available examinations of large                      issues. The number of direct hours the IRS
businesses to the LIFE process over the                  applied to the Automated 6020(b) Program
next 5 years, the amount of recommended                  steadily declined from a high of 43,209 in
additional taxes could drop an average of                FY 1993 to a low of 1,151 in FY 2001,
$349 million a year, or $1.7 billion over                before increasing to 6,542 in FY 2003 after
5 years.                                                 the IRS centralized administration of the
                                                         Program. The declining trends in
We recommended the IRS develop and                       resources applied to the Automated
implement a plan for analyzing data on                   6020(b) Program adversely affected the
LIFE examinations that is reliable and can               results. The amount of taxes assessed by
help correct problems identified, clarify the            the Program declined from $206.8 million
integration of the Currency and Cycle                    in FY 1998 to $3.6 million in FY 2002, but
Time Improvement Initiative5 with the                    then increased to $60.6 million in FY 2003.
LIFE process, and ensure mid-level
managerial reviews include evaluating                       Taxes Assessed by the Automated 6020(b)
                                                                   Program, FYs 1996-2003
open cases and assessing whether the
                                                          $250,000,000
LIFE process is being used in
examinations. IRS management generally                    $200,000,000

agreed with our recommendations.
Report Reference No. 2005-30-029                          $150,000,000



                                                          $100,000,000
For Tax Year (TY) 2001, the IRS
estimated the gross tax gap6 attributable to               $50,000,000

the underreporting and underpaying of
employment taxes was $73.3 billion.                                $0
                                                                         FY 1996



                                                                                   FY 1997



                                                                                             FY 1998



                                                                                                       FY 1999



                                                                                                                 FY 2000



                                                                                                                           FY 2001



                                                                                                                                     FY 2002



                                                                                                                                                   FY 2003
However, the IRS has not used the
Automated 6020(b) Program7 to address
                                                            Source: Collection Activity Reports (FYs 1996-2003).
business taxpayer filing noncompliance
throughout most of the past decade due to
                                                         To improve the effectiveness and
various organizational changes,
                                                         efficiency of the Automated 6020(b)
                                                         Program for addressing business filing
5
  This initiative was more aggressive than LIFE in       noncompliance, we recommended the IRS:
  holding examiners accountable for closing              replace the computer system supporting
  examinations. It directed examiners to meet
  specific dates by establishing time periods for
                                                         the Program with one that interfaces with
  requesting and submitting tax records and              its other systems; modify the dollar
  presenting and responding to examination results.      criterion to select additional cases that may
6
  The gross tax gap is the difference between the
  amount taxpayers owe the Federal Government
                                                         otherwise remain unworked; modify the
  and the amount they voluntarily and timely pay.        Program to add nonfiled excise tax returns;
7
  IRC § 6020(b) (2004) provides the IRS with the         and evaluate the computation used for
  authority to prepare and process certain returns for
  a nonfiling business taxpayer if the taxpayer
                                                         assessing proposed unemployment tax
  appears to be liable for the return, the person        assessments. IRS management agreed
  required to file the return does not file it, and      with the recommendations.
  attempts to secure the return have failed.
                                                         Report Reference No. 2005-30-053



                                                                                                                                               9
   Promote the Economy, Efficiency, and
   Effectiveness of Tax Administration


To improve IRS tax compliance initiatives,       compliance with filing and reporting
TIGTA reviewed pass-through businesses           requirements for pass-through entities.
during this reporting period. Pass-through       IRS management disagreed with some of
businesses, such as partnerships and S           the recommendations presented in the
corporations, are not subject to income          report. The decision to implement the
taxes, although they have a significant          remaining recommendations requires input
impact on tax administration. For TY 2001,       and concurrence from the Department of
$276.3 billion passed through over 2.1 million   the Treasury. The IRS will consult with
partnerships to their individual partners.       Treasury on these issues.
The incidence of late-filed returns,             Report Reference No. 2005-30-048
measured as a percentage of total returns
filed, is nearly two times higher among          Also in the area of tax compliance, TIGTA
partnerships and nearly four times higher        received requests from the IRS in
among S corporations, than it is among           November 2004 to evaluate a new process
individual taxpayers, and it is rapidly          for reviewing allegations of potential
growing. Between Calendar Years (CY)             political activity by tax-exempt
2000 and 2003, the number of late-filed          organizations. There had been several
partnership returns increased                    media reports of allegations that the IRS
22 percent (from 167,000 to 203,000).            Tax Exempt and Government Entities
During the same period, the number of late-      Division was examining this type of
filed S corporation returns increased 28         activity for politically motivated reasons
percent (from about 450,000 to 577,000).         just before the 2004 Presidential election.
                                                 Based on the extent of our audit work, we
Late-filed partnership and S corporation         did not identify any indications that
returns can have an adverse effect on the        inappropriate actions, such as political
filing and reporting compliance of the           influence, may have been taken in
individual partners and shareholders. Our        handling these referrals. We reviewed
analysis of TY 2001 tax return data for          samples of information items that were
more than 817,000 individual partners and        handled under the new process and
shareholders indicated late filing of returns    determined the Exempt Organization (EO)
by pass-through businesses may have              Referral Committee followed a consistent
contributed to 49 percent of these taxpayers     process when it reviewed the items,
obtaining an extension of time to file their     regardless of the source of the allegation or
individual tax returns, 108,587 late-filed       the potential political activity. We did not
individual tax returns, and more than            identify any case in which the same criteria
$1 billion not being reported on individual      were used to select one information item
income tax returns. We estimated more            for examination and to decline a similar
than $354 million in individual income           item for examination.
taxes was not paid on this unreported
pass-through income.                             However, the IRS experienced delays in
                                                 expediting the classification and
We recommended the IRS amend the tax             examination processes. As a result,
regulations and/or develop legislative           management did not send contact letters to
proposals to address several key issues that     organizations until September 21, 2004,
would encourage greater voluntary



   10
                                                       Promote the Economy, Efficiency, and
                                                      Effectiveness of Tax Administration


6 weeks before the scheduled elections.        •   Roles and responsibilities not assigned
We believe contacting organizations so             and employees not trained; and
close to the election and the late publicity   •   Annual tests not conducted or ineffective.
about this project contributed to the
allegations of improper motivation on the      Also, 27 of 44 corrective actions for prior
part of the IRS.                               recommendations were not completed and
                                               insufficient management oversight
We recommended IRS management                  hampered the identification and resolution
formalize guidelines for reviewing             of program weaknesses. However,
allegations of potential noncompliance,        management’s efforts to correct these
establish realistic time standards for         problems have also been limited, in part,
classifying information items and              by shrinking budgets. IRS management
forwarding them to an examination group,       agreed with the report recommendations
and initiate any future expedited review       and will declare the Disaster Recovery
process earlier in the election year.          Program a material weakness.
Further, we recommended IRS                    Report Reference No. 2005-20-024
management issue a press release in future
election years outlining an expedited          IRS employees have become more
process to review allegations of potential     cognizant of security risks inherent in their
political intervention. IRS management         daily activities. However, a hacker or
agreed with our recommendations and            disgruntled employee may still be able to
proposed corrective action.                    obtain usernames and passwords to gain
Report Reference No. 2005-10-035               unauthorized access to IRS systems. We
                                               placed telephone calls to 100 managers and
                                               employees posing as Information
Security of the IRS                            Technology helpdesk personnel trying to
                                               correct a network problem. Under this
During FYs 2002 through 2004, IRS              scenario, we convinced 35 managers and
management initiated and/or completed          employees to provide their user account
several actions that demonstrated increased    names and passwords. While our results
emphasis on emergency management and           represent a 50 percent improvement over a
preparedness, including disaster recovery      similar test conducted in August 2001,
planning. However, significant disaster        additional security awareness and emphasis
recovery program weaknesses continue to        are needed to reinforce IRS employees’
be unresolved. Our analysis of 11 prior        security responsibilities. IRS management
TIGTA audit reports identified such            agreed with our recommendations and
weaknesses, including:                         proposed corrective actions.
                                               Report Reference No. 2005-20-042
•   Modernization systems being placed
    into production without a disaster
    recovery capability;
•   Insufficient disaster recovery capacity;




                                                                                          11
    Promote the Economy, Efficiency, and
    Effectiveness of Tax Administration


Providing Quality                                     incorrect responses. We believe the IRS
Customer Service                                      will not achieve its accuracy goal if
                                                      employees continue to answer tax law
Operations
                                                      questions without using the tools provided
                                                      by IRS management, and if the IRS does
Helping people understand their tax
                                                      not implement an effective quality review
obligations and making it easier for them
                                                      program. Because we have issued similar
to participate in the tax system is the first
                                                      recommendations in previous reports, we did
step toward compliance. Taxpayers have
                                                      not make recommendations in this report.
several options when they need IRS
                                                      Report Reference No. 2005-40-021
assistance, including face-to-face
assistance at the Taxpayer Assistance
                                                      As for customer service provided via the
Centers (TAC), toll-free telephone
                                                      Internet, the IRS redesigned its Web site
numbers, and Internet access through the
                                                      in 2002. The IRS decentralized
IRS Web site (IRS.gov). The quality of
                                                      responsibility for current and future Web
each of these services influences a
                                                      content to its various operating divisions
taxpayer’s ability and desire to comply
                                                      and functions. In addition, the IRS
voluntarily with tax laws.
                                                      developed and issued guidelines in this
              Customer Service at TACs                area on September 30, 2002, and
                                                      implemented software to allow authorized
 Taxpayer                Screener          Taxpayer
 Enters the              Determines        Takes
                                                      users to directly manage Internet content.
 TAC                     Tax Law Issue     Number

                                                      A large portion of the content on the IRS
                                                      Web site is relevant to approximately
                                                      121 million individual taxpayers whose
                                                      income is derived from wages and
          Assistor              Assistor Calls        investments yielding interest, dividends, or
          Answers Tax
          Law Question
                                Taxpayer from
                                the Queue
                                                      capital gains. The IRS Wage and
                                                      Investment (W&I) Division serves these
                                                      individual taxpayers and is responsible for
                                                      ensuring all information pertaining to these
                                                      taxpayers is accurate and current. The
                                                      W&I Division proactively developed
The IRS is improving customer service for
                                                      specific procedures for employees to
taxpayers that visit the TACs to ask tax
                                                      follow in publishing content on IRS.gov.
law questions, but more improvement is
                                                      However, improvements are needed to
needed for the IRS to provide top-quality
                                                      ensure this content is current and accurate.
customer service. Although the accuracy
                                                      Sufficient management controls are not in
of responses to tax law questions increased
                                                      place to ensure only authorized individuals
by 24 percent, based on the audit work we
                                                      have access to IRS.gov content and all
completed from January 2002 through
                                                      content is tracked and reviewed prior to
April 2004, the IRS did not meet its
                                                      posting. In addition, key quality assurance
80 percent accuracy goals for FYs 2003
                                                      procedures are not always followed to
and 2004, and it showed nominal
                                                      ensure the IRS responds to taxpayers who
improvement in decreasing the number of



     12
                                                                      Promote the Economy, Efficiency, and
                                                                     Effectiveness of Tax Administration


notify them of Web site errors, and                           tests. In addition, the tax software
employees follow procedures for                               packages’ own internal validity checks did
reviewing content changes and                                 not identify the errors.
documenting annual certifications. We
recommended the IRS develop a process to                      We recommended the IRS develop
ensure only authorized personnel have                         procedures to ensure electronic file
access to IRS.gov content and all                             specifications are reviewed for accuracy
procedures are followed. IRS management                       and consistency, and conduct additional
agreed with these recommendations.                            testing on any selected tax return
Report Reference No. 2005-40-026                              preparation software before being used by
                                                              its employees and volunteers to prepare tax
Also in the area of customer service via the                  returns. The IRS agreed with our
Internet, the IRS has made significant                        recommendation on file specifications.
progress in attracting taxpayers to                           However, the IRS believes it would not be
electronically file their tax returns (e-file).8              feasible to perform additional software
In addition the number of taxpayers                           testing without impeding its availability to
participating in e-file has increased from                    IRS employees and volunteers and
approximately 19 million in 1997 to                           delaying tax return processing. In
60.5 million in 2004.9 However,                               addition, the IRS cannot contractually
opportunities exist to improve tax software                   require software developers to place their
packages used to prepare and process                          products under the IRS’ process for more
e-filed tax returns.                                          stringent testing.
                                                              Report Reference No. 2005-40-025
The IRS uses electronic file specifications
to program its computers that prepare and
process e-filed tax returns. The IRS                          Erroneous Payments
appropriately updated these specifications
with TY 2003 tax law provisions.                              The IRS has historically experienced
However, inaccurate programming                               problems by making erroneous payments
specifications used to program and process                    involving the Earned Income Tax Credit
TYs 2001 and 2002 tax returns caused                          (EITC). EITC is a refundable credit
systemic errors in some software used to                      designed to help move low-income
e-file certain tax returns. The IRS tests all                 taxpayers above the poverty level. During
tax return preparation software used to                       2003, over 21 million taxpayers received
e-file individual tax returns, but the tests                  the EITC, totaling almost $37 billion. The
are not created to check for misapplication                   IRS estimated that 27 to 32 percent of the
of the tax law. Four out of the five TY                       EITC claimed on TY 1999 returns should
2003 tax return preparation software                          not have been paid.
packages tested incorrectly prepared tax
returns based on facts we presented in the                    The IRS has initiated several programs to
                                                              attempt to improve compliance with the
8                                                             EITC. We reviewed one initiative, the
   E-file is a way to electronically file a tax return with
  the IRS using an authorized e-file provider or              EITC Recertification Program, to determine
9
  personal computer.                                          if actions taken in response to a prior TIGTA
   As of August 1, 2004.



                                                                                                        13
    Promote the Economy, Efficiency, and
    Effectiveness of Tax Administration


report were effective. The IRS did take       Processing Returns and
some corrective actions, such as solving a    Implementing Tax Law
programming problem we identified. This
                                              Changes During the Tax
corrective action allowed over 21,000
taxpayers to correctly receive more than      Filing Season
$4.7 million in EITC. However, many of
the actions taken were ineffective,           Overall, the IRS had a successful 2004
incomplete, or inaccurate. We still           Filing Season. Through May 2004, the
identified taxpayers not receiving the        IRS had processed over 117 million returns
EITC, taxpayers not timely receiving          (including over 60 million processed
refunds, taxpayers subjected to               electronically – an increase of nearly
unnecessary examinations, unclear or          16 percent over last year). Most of these
confusing communications, and loss of         returns were processed accurately and
Federal Government funds. For instance:       timely. In addition, the IRS reported that
                                              the number of free file and on-line filings
•   Approximately 51,000 taxpayers            from home computers increased by
    received more than $110 million of EITC   25 percent (3.5 million) and 22 percent
    without demonstrating entitlement;        (14.4 million), respectively, compared to
                                              last year. The IRS correctly implemented
•   Over 10,000 taxpayers were improperly
                                              key tax law changes that affected TY 2003
    denied almost $21 million;
                                              returns, and provided taxpayers serving in
•   Over 3,200 taxpayer accounts had          a combat zone the benefits and special
    refunds totaling approximately            treatment to which they are entitled. Such
    $4 million incorrectly suspended for an   benefits include extensions of time to file
    average of 1 year; and                    tax returns or pay taxes and the suspension
•   The IRS sent taxpayers approximately      of any audit or collection activities. The
    850,000 letters or electronic messages    IRS also accurately processed returns
    that did not clearly or accurately        claiming the Health Coverage Tax Credit
    communicate the EITC recertification      (HCTC), which was established to help
    requirements.                             certain displaced workers and retirees pay
                                              for their health insurance.
IRS management generally agreed with
our recommendations to help improve the       However, not all tax law changes have
application and administration of the EITC    been effectively implemented, and these
Recertification Program.                      continuing issues could result in a loss of
Report Reference Nos. 2005-40-015 and         taxpayer entitlements or erroneous tax
2005-40-039                                   reductions. We estimated almost 5,000
                                              taxpayers continued to receive more than
                                              $3 million in erroneous deductions for
                                              student loan interest while over 286,000
                                              taxpayers had potential unclaimed
                                              Additional Child Tax Credits (ACTC)
                                              amounting to approximately $152 million.




    14
                                                       Promote the Economy, Efficiency, and
                                                      Effectiveness of Tax Administration


Almost 17,000 single taxpayers were            $4.5 billion for a 5-year period, of which
allowed questionable “dual benefits” of        we estimated more than $1.8 billion could
approximately $30 million for the tuition      be collected.
and fees deduction and $11 million for the
Education Credit. We also identified some      In contrast, for accounts that are manually
processing improvements needed to aid          administered, some of which belong to
the administration of Combat Zone and          taxpayers in disaster areas or military
HCTC provisions.                               combat zones, interest is assessed on the
                                               FTP tax penalty. The FTP tax penalties on
We recommended the IRS ensure computer         these accounts are computed manually
programs accurately identify and correct       because IRS computers are not
errors on returns, ensure a computer change    programmed to handle their complex or
is made to continue to identify taxpayers      varying tax issues. Because FTP tax
that appear eligible for, but do not claim,    penalties are periodically assessed on these
the ACTC, and strengthen controls to           accounts, interest is charged on the
identify and prevent erroneous tax             penalties from the time of their assessment.
reductions during initial tax return           For CYs 2001 and 2002, we estimated over
processing. We further recommended the         126,000 of these accounts contained more
IRS add a specific line for the HCTC to the    than $8.7 million in interest charges
Individual Income Tax Return (Form 1040),      through December 31, 2003, even though
transcribe information from the Health         taxpayers with accounts handled by
Coverage Tax Credit (Form 8885)                computer never incur these interest charges.
attachment to Form 1040, and implement
pre-refund systemic validity and               To ensure all taxpayers are treated
compliance checks. Lastly, we                  equitably and all monies owed the Federal
recommended the IRS ensure Combat Zone         Government are correctly assessed, we
indicators on its Master File are accurate,    recommended the IRS make programming
updated timely, and verified annually.         changes to assess accrued FTP tax
Report Reference Nos. 2005-40-016 and          penalties on a periodic basis. We also
2005-40-017                                    recommended the IRS work with the
                                               Department of the Treasury to request
In a separate audit report, related to         clarifying legislation regarding the need
processing returns, we addressed the           for separate notices to be issued to
inconsistent treatment of taxpayers who        taxpayers in these cases. IRS management
become subject to the Failure to Pay (FTP)     generally agreed with our
tax penalty. IRS computers are                 recommendations and is taking steps to
programmed to charge interest on accrued       address this issue.
FTP tax penalties only after they are          Report Reference No. 2005-30-052
assessed. This shortcoming applies to the
automated administration of the FTP tax
penalty for taxpayer accounts (the majority
of FTP tax penalty cases). By not
periodically assessing penalties, the IRS is
forgoing interest charges of more than



                                                                                        15
   Promote the Economy, Efficiency, and
   Effectiveness of Tax Administration


Human Capital                                 The HR Connect Program Office did not
                                              provide adequate oversight of the
The Department of the Treasury                contractor and major portions of the
implemented a human resources                 system implementation. The costs to
management system called HR Connect,          implement and operate similar software at
based on promising capabilities and the       other Federal Government agencies were
belief that it offered a cost-effective       significantly lower. The Department of the
solution for the Department and its           Treasury paid $173 million to implement
bureaus’ redundant, expensive, and            HR Connect, while similar human resource
inefficient human resources systems.          systems at the Coast Guard and the United
However, some of the original program         States Department of Agriculture cost
features and cost/benefits were changed or    $24 million and $15 million, respectively.
eliminated. The business case analyses        The project experienced significant delays,
submitted to the Office of Management         and the Program Office extended the
and Budget (OMB) were not consistent          system life cycle from 10 to 15 years to
and did not include complete information      show a higher return on investment. The
on systems that were to be replaced. The      underlying analysis to support the
Department and the IRS incurred               $899 million in projected savings was
unexpected costs for maintaining software     unsubstantiated, especially savings related
and systems that were to be replaced,         to staff reassignments or reductions.
incurred additional costs for modifying the
HR Connect system, and scaled back            We recommended the Department of the
expectations for system capabilities.         Treasury ensure future business case
                                              analyses submitted to the OMB explain
  Treasury HR Connect Log-In Screen
                                              revisions and impact on the investment,
                                              and reevaluate the duties delegated to the
                                              contractor to ensure proper oversight. We
                                              also recommended the Department of the
                                              Treasury identify and monitor custom
                                              modifications made to the software,
                                              coordinate with other agencies to achieve a
                                              more cost-effective model for operating
                                              and maintaining the system, properly
                                              account for system costs, and assess the
                                              likelihood of projected benefits so future
                                              decisions are based on correct information.
                                              The Department of the Treasury’s
                                              management agreed with our
                                              recommendations and proposed corrective
                                              actions to address these problems.
                                              Report Reference No. 2005-10-037




   16
                                                      Promote the Economy, Efficiency, and
                                                     Effectiveness of Tax Administration


In 1999, the IRS and the National Treasury    FYs 2002 and 2003, the IRS paid
Employees Union agreed to establish the       approximately $4.4 million to administer
Human Resources Investment Fund               the program, but paid only $2.8 million in
(HRIF) to help employees obtain               employee tuition assistance. The IRS
appropriate training to move into IRS         could use other existing processes to
critical occupations and improve the skills   allocate tuition assistance more effectively
of the employees currently in these           and better accomplish the intended
positions. The IRS was required to set        objectives of the HRIF. The IRS could use
aside at least 2 percent of its annual        its new automated training system of
training budget for the HRIF. For             record, the Enterprise Learning
FYs 2002 and 2003, the IRS approved           Management System, to track the success
more than $6.1 million and 11,000 courses     of these initiatives.
for 5,100 employees. However, only
46 percent of the $6.1 million reported as    We recommended the IRS request
“disbursed” was actually spent.               reimbursement from employees who failed
Additionally, the IRS did not maintain        or did not complete approved courses, as
adequate records to track participants,       appropriate. We also recommended the
which prevented it from assessing this        IRS consider eliminating the HRIF and
program. As a result, the IRS did not         redesign its approach to providing tuition
know whether employees passed or failed       assistance, which could save more than
the courses or whether the IRS should seek    $2 million in annual administrative costs.
reimbursement from employees for failed       While they disagreed with the estimated
or uncompleted courses.                       annual savings, IRS management agreed
                                              with the recommendations and proposed
The program’s efficiency is also              corrective actions to address the problems
questionable since its administrative costs   identified in the report.
exceeded the actual tuition paid. For         Report Reference No. 2005-10-070




                                                                                       17
     THE “SEALING ROOM” OF THE TREASURY BUILDING – WHERE THE U.S. SEAL
                    WAS IMPRINTED ON BANK NOTES, 1910




18
                                                                         Protect the Integrity
                                                                         of Tax Administration




    PROTECT THE INTEGRITY OF TAX
           ADMINISTRATION


    T   IGTA’s Office of Investigations
        (OI) helps protect the ability of the
        IRS to collect revenue for the
                                                •   Operating a national complaint center,
                                                    including a hotline and Web site, to
                                                    process complaints of fraud, waste,
Federal Government. To do this, we                  abuse and misconduct involving IRS
investigate allegations of criminal                 employees and programs;
violations and serious administrative           •   Operating a Criminal Intelligence
misconduct by IRS employees, protect the            Program to manage and coordinate
IRS against external attempts to corrupt tax        threat information that could impact the
administration, and ensure IRS employee             security of IRS employees and functions;
and infrastructure security.
                                                •   Conducting forensic examinations of
                                                    physical and electronic evidence to
While most Offices of Inspector General
                                                    support investigations; and
focus primarily on fraud, waste and abuse,
our mission is more extensive. TIGTA has        •   Using technical and investigative
the statutory responsibility to protect the         support equipment, training, and
integrity of tax administration. To achieve         specialized services to enhance
this broad mandate, we perform a variety            investigative operations.
of functions, including:

•   Investigating allegations of criminal
    violations that impact Federal tax
    administration, and serious                      “…A strong vigorous inspection service
    administrative misconduct by                       will be established and will be made
    IRS employees;                                   completely independent of the rest of the
•   Conducting proactive investigative              Bureau. Through a comprehensive system
    initiatives to detect criminal and              of audits and inspections, this service will
    administrative misconduct in the                 keep operations and management of the
    administration of IRS programs;                    Bureau under continual scrutiny and
•   Conducting integrity and fraud                                 appraisal…”
    awareness presentations for IRS
    employees and others, such as tax                        U.S. President Harry S. Truman
                                                                     January 2, 1952
    practitioners and community groups;
                                                           The White House, Washington, DC
•   Investigating assaults and threats made         Announcing the reorganization of the Bureau of
    against IRS employees, facilities, and          Internal Revenue, creating an Inspection Service
    information systems;                                            within the Bureau
•   Investigating fraud, waste, and abuse
    involving IRS procurements;



                                                                                             19
Protect the Integrity
of Tax Administration




               TIGTA INVESTIGATIVE PERFORMANCE MODEL




   TIGTA’s Office of Investigations (OI) bases its performance measures on three functional
   areas of accomplishment: employee integrity, infrastructure protection, and external
   crime. Each of these three areas is subdivided into three categories, all designed to
   support the agency’s law enforcement goals.




   20
                                                                 Protect the Integrity
                                                                 of Tax Administration




Our strategy for ensuring employee              initiation of 240 investigations involving
integrity, employee and infrastructure          apparent unauthorized access of IRS
protection, and protecting the IRS against      computer systems.
external attempts to corrupt tax
administration is to focus TIGTA special
agents on high impact investigations that       The following cases are examples of IRS
protect the ability of the IRS to collect the   employee integrity investigations conducted
nation’s tax revenue.                           during this reporting period.


                                                IRS Agent Arrested for Scheme to
                                                Defraud the United States
Employee Integrity
                                                In February 2005, an IRS employee was
                                                arrested in New Jersey for knowingly
The IRS’ ability to deliver taxpayer            defrauding the United States. The
service, enforce tax laws effectively, and      employee allegedly managed and
collect the proper amount of taxes owed         controlled the financial affairs of a real
can be undermined by employee                   estate development and home construction
misconduct. We investigate employee             company. Allegedly, the IRS employee
misconduct allegations, including               diverted proceeds from the sale of real
extortion, theft, taxpayer abuses, false        estate to various bank accounts and
statements, and financial fraud, as well as     individuals. As a result, the company and
contractor misconduct and wrongdoing.           its owner defrauded the United States of
During the reporting period, we completed       taxes owed on approximately $600,000.
935 employee integrity investigations.

As an integral part of our employee
integrity program, we conduct proactive
integrity initiatives designed to uncover           Protecting Taxpayer Identification
                                                               Information
fraud in IRS operations and to identify
internal control weaknesses that may have            To protect the sanctity of taxpayer
permitted the fraud to go undetected or              information, TIGTA conducts
unreported. A primary resource used in               proactive initiatives to identify IRS
                                                     employees who improperly access
this effort is our Strategic Enforcement             confidential information and records
Division (SED). Through SED’s data                   of taxpayers. Through the
mining capacity, we proactively detect               identification and prosecution of IRS
IRS employees who may have improperly                employees responsible for
accessed and/or disclosed confidential               wrongfully accessing confidential
                                                     taxpayer information, TIGTA helps
taxpayer information. During this                    minimize opportunities for identity
reporting period, our Unauthorized                   theft by IRS personnel.
Access (UNAX) Program led to the




                                                                                              21
Protect the Integrity
of Tax Administration




IRS Tax Examining Assistant Pleads                 investigators if ever questioned about the
Guilty to Unauthorized Disclosure of               matter. The employee was also charged
Tax Information                                    with falsely stating to investigators that
                                                   she did not conduct the accesses and/or
In January 2005, an IRS Tax Examining              contact the individual.
Assistant pled guilty in Wisconsin to
unauthorized disclosure of tax return and
return information. In a plea agreement,           Former IRS Contract Employee
the IRS employee admitted to willfully             Sentenced for Stealing More Than
disclosing tax information of individuals,         $231,000 from an IRS Lockbox Facility
including their names, addresses, and
social security numbers. The employee              In February 2005, a former IRS contract
disclosed the information to her daughter,         employee was sentenced in Texas for
who used this information for personal             embezzlement, and aiding and abetting.
business purposes.                                 The former contract employee stole and
                                                   converted more than $231,000 in tax
                                                   remittance checks from an IRS lockbox.
IRS Employee Charged with False                    The individual deposited the remittance
Statements Involving Improper Accesses             checks into bank accounts in assumed
of Taxpayer Accounts                               names. The individual was sentenced to
                                                   71 months in prison, 3 years’ supervised
In February 2005, an IRS employee was              release, and was ordered to pay more than
charged in Michigan with making false              $194,000 in restitution. Upon release from
statements and witness tampering.                  prison, he will be turned over to U.S.
Allegedly, the IRS employee improperly             Immigration for deportation proceedings.
accessed 12 individuals’ tax accounts and
instructed one individual to lie to




                        TIGTA’s Technical and Firearms Support Division
                               and Forensic Science Laboratory

     TIGTA’s investigative efforts are greatly enhanced by its Technical and Firearms
     Support Division and Forensic Science Laboratory. Each of these programs provides
     technical expertise throughout our investigations. During the reporting period, the
     Technical and Firearms Support Division provided electronic or surveillance support in
     101 investigative requests, while the Forensic Science Laboratory conducted 60
     forensic examinations.




   22
                                                              Protect the Integrity
                                                              of Tax Administration




Two Individuals Arrested for More             Recognizing the vital nature of the IRS’
Than $1 Million in False Claims               responsibility, the Congress directed
                                              TIGTA to protect the IRS from external
In January 2005, two individuals were         threats. To meet this challenge, we operate
arrested in Maryland for false claims,        a nationwide Criminal Intelligence
conspiring to defraud the United States       Program (CIP) designed to identify and
with respect to claims, obstruction of a      neutralize threats, assaults, and violent
federal audit, and aiding and abetting. The   acts targeted against IRS facilities,
individuals are alleged to have posed as      employees, and operations. As part of the
the president and vice president of a         Program, TIGTA participates in FBI Joint
corporation contracted to plan, manage,       Terrorism Task Forces throughout the
and coordinate the IRS’ nationwide tax        country and assists the IRS in developing
forums. Allegedly, the individuals created    and enhancing its employee safety and
fictitious invoices and documents to          infrastructure security programs. During
support underreported income and              this reporting period, we completed
overreported expenses to the IRS,             162 investigations of threats and assaults
resulting in the IRS’ payment of more than    directed at IRS employees and facilities,
$1 million in management fees. The            and issued 199 advisories notifying IRS
individuals are also alleged to have failed   management of potential threats.
to provide records subpoenaed by
TIGTA’s Office of Audit.
                                              The following cases are examples of IRS
                                              employee and infrastructure security
                                              investigations conducted during this
Employee and                                  reporting period.
Infrastructure Security
                                              Individual Convicted for Soliciting to
                                              Murder an IRS Employee
The IRS collected $2 trillion in revenue
                                              In January 2005, an individual in Idaho
for the Federal Government in Calendar
                                              was found guilty on three counts of
Year 2004. This revenue is used to fund
                                              solicitation to commit a crime of violence.
Federal programs related to housing,
                                              The individual solicited another individual
health care, clean air, national defense,
                                              to murder an IRS Special Agent, an
social security, highways, and more.
                                              Assistant United States Attorney, and a
Threats and assaults against IRS
                                              Federal Judge who were assigned to the
employees, facilities, and data
                                              individual’s Federal tax violations.
infrastructure impede the IRS’ efforts to
collect tax revenue.




                                                                                        23
Protect the Integrity
of Tax Administration




Individual Arrested for Threatening to          force to assault and interfere with two IRS
Mail a Bomb to an IRS Revenue Officer           employees while they were engaged in the
                                                performance of their official duties,
In December 2004, an individual was             resulting in the infliction of bodily injury
arrested in Michigan for corruptly              to one IRS employee.
interfering with the due administration of
internal revenue laws. The individual
allegedly threatened to mail a bomb to an
IRS Revenue Officer who was performing          External Attempts to
his official duties.                            Corrupt Tax
                                                Administration
Criminal Complaint Filed Against an
Individual Charging Him with Threats            TIGTA is dedicated to investigating
Against Public Officials and Others             external attempts to corrupt or interfere
                                                with the administration of internal revenue
In February 2005, a criminal complaint          laws. Examples of these attempts include
was filed in Maine charging an individual       bribes offered by taxpayers to compromise
with: knowingly and willfully making a          IRS employees, the use of fraudulent IRS
threat to kill the President of the United      documentation to commit crimes,
States; knowingly making threats via            impersonation of IRS officials, and the
electronic mail to injure members of a          corruption of IRS programs through
research institute; and knowingly making        procurement fraud. External attempts to
threats via electronic mail to injure agents    corrupt tax administration impede the IRS’
of the IRS. The individual was also             ability to collect revenue.
charged with knowingly depositing or
causing to be deposited in the United           Bribery investigations are an important
States mail a written communication             priority for us. With the IRS planning to
containing threats to injure a person,          increase revenue collection from
namely IRS agents; and knowingly making         delinquent taxpayers, more attempts by
threats via electronic mail to injure an        taxpayers to bribe IRS employees involved
employee of a television station.               in those collection activities may occur.
                                                Since October 1, 2004, we have conducted
                                                21 investigations into bribery allegations
Individual Charged with Assaulting IRS          involving taxpayers. In addition, we
Employees                                       conducted 60 investigations of attempts
                                                to manipulate or corrupt IRS systems and
In March 2005, an individual was indicted       operations, and 233 investigations into
in California for assaulting a Revenue          fraud and other related activities.
Officer resulting in the infliction of bodily
injury. Allegedly, the individual used




   24
                                                                    Protect the Integrity
                                                                    of Tax Administration




                                  Procurement Fraud Program

   The Procurement Fraud Section (PFS) within TIGTA’s Special Inquiries and
   Intelligence Division (SIID) is dedicated to the identification and investigation of
   procurement fraud within the IRS. The PFS achieves its goals through proactive and
   reactive investigations, fraud awareness presentations, proactive investigative
   initiatives, data analyses, and liaisons. These activities, while labor intensive, relate
   directly to TIGTA’s core mission of preventing external attempts to corrupt the IRS’s
   ability to effectively administer the tax laws.




The IRS has also placed special emphasis           Individuals Found Liable for More
on technology modernization and                    Than $1.5 Million for False Claims
outsourcing. To accomplish its                     Submitted to the IRS
modernization program, the IRS will
continue to rely heavily on contractor             In Fall 2004, a husband and wife were held
support. With IRS procurement                      jointly liable in Maryland for violating the
expenditures and commitments in the                Civil False Claims Act. According to the
billions of dollars over the life of current       Court, the husband owned and controlled
contracts, the opportunity for contract            two companies – one that acted as a
fraud is always present. We have                   subcontractor, the other as a middleman –
established a Procurement Fraud Section            on an IRS contract to repair laptop
(PFS) to identify procurement fraud,               computers. The husband vastly inflated
prosecute the responsible individuals, and         his company’s costs, causing the prime
recover monies owed to the Federal                 contractor to submit overpriced invoices
Government. During this reporting period,          for services to the IRS. The wife sat on the
results of the PFS have been impressive,           Board of Directors of each company. The
with more than $1.5 million in recoveries          Court found treble damages in excess of
and nine fraud awareness presentations             $1.2 million and assessed an additional
made to179 individuals.                            $220,000 in civil penalties, for a total
                                                   award of more than $1.5 million to
                                                   the government.
The following cases are examples of
investigations of external attempts to corrupt
                                                   Tax Accountant Sentenced for Wire
tax administration conducted during this
reporting period.
                                                   Fraud Involving a Tax Liability

                                                   In January 2005, a tax accountant was
                                                   sentenced in Pennsylvania for wire fraud.
                                                   The tax accountant negotiated an IRS




                                                                                               25
Protect the Integrity
of Tax Administration




installment agreement on behalf of one of          Individual Sentenced for Bribing an IRS
his clients. The tax accountant instructed         Employee
his client to wire him payments so he could
forward them to the IRS. He did not                In January 2005, an individual was
forward the payments to the IRS, but               sentenced in New York for bribery. The
converted more than $148,000 for his own           individual paid an IRS employee $10,000
use. The tax accountant was sentenced to           in cash to assess no additional taxes for her
37 months in prison, 3 years’ supervised           CY 2000 and 2002 tax returns. The
release, and ordered to pay $95,400                individual also made a $5,000 payment to
in restitution.                                    the IRS employee to reduce her 2001 tax
                                                   liability from $37,000 to approximately
                                                   $5,000.
Individual Pleads Guilty to
Impersonating an IRS Employee
                                                   Individual Sentenced for Theft of IRS
In February 2005, an individual pled guilty        Grant Funds
in New Jersey to impersonating an IRS
employee. An IRS Revenue Officer issued            In January 2005, an individual was
a notice of levy of funds to a business            sentenced in Ohio for theft of government
where the individual was a subcontractor.          property. The individual, representing
The levy was for a tax liability of more           himself as the finance director of a
than $46,000 owed by the individual. The           nonprofit organization, falsely obtained
individual called the business owner,              more than $16,800 in IRS grant funds
purporting to be the IRS Revenue Officer,          under the Tax Counseling for the Elderly
and falsely advised the business owner             Program. The individual was sentenced
that the levy had been released. To                to 4 months’ home confinement, 3 years’
confirm the phone call, the individual             probation, 100 hours of community
faxed a false letter (again, purportedly           service, and ordered to pay $18,675
from the IRS Revenue Officer) to the               in restitution.
business owner.


        “There is no crime more serious than bribery. Other offenses violate one law
                    while corruption strikes at the foundation of all law.”
                               U.S. President Theodore Roosevelt
                                       December 7, 1903
                               The White House, Washington, DC




   26
                                                             Protect the Integrity
                                                             of Tax Administration




Individual Pleads Guilty to Interfering      fraudulently represented himself as an
with the Administration of Internal          attorney and assisted others in filing
Revenue Laws                                 fraudulent tax returns. The individual also
                                             filed fictitious arrest warrants against the
In January 2005, an individual pled guilty   IRS agents investigating the case, and
in North Carolina to interfering with the    advised three different witnesses not to
administration of internal revenue laws,     appear before a Federal grand jury.
and aiding and abetting. The individual




                                                                                       27
     VIEW OF F STREET WITH TREASURY BUILDING IN BACKGROUND, 1920




28
                                                                   Special Achievements




             SPECIAL ACHIEVEMENTS

                   TIGTA Receives Telework Award



T
       IGTA has once again received an award
      for its Telework program. We received
      the Leadership in Specialized Programs
for Teleworkers Award for our Hoteling
initiative from the Potomac Forum. The
award presentation took place at Potomac
Forum’s Telework in the Federal Government
Conference on October 13, 2004. Joseph
Hungate, TIGTA’s Assistant Inspector
General for Information Technology, a
featured speaker at the conference, discussed
recommendations for success, best practices,
and lessons learned.




                TIGTA Liaison Receives Recognition



                                                L
                                                     uis D. Garcia, TIGTA’s
                                                    Congressional and Media Liaison,
                                                    received an appreciation plaque on
                                                March 14, 2005, from the Korean
                                                Ambassador to the United States, the
                                                Honorable Seok-Hyun Hong. The
                                                plaque, signed by the Commissioner of
                                                the Korean National Tax Service, was
                                                given to Mr. Garcia for his work in
                                                helping to foster international
                                                cooperation and promote best practices
                                                in tax administration.

       Luis Garcia (left) receives gift
      plaque from Ambassador Hong


                                                                                    29
Audit Statistical Reports



            AUDIT STATISTICAL REPORTS

                          Audit Reports With Questioned Costs



One audit report with questioned costs was                                  adequate documentation (an unsupported
issued during this semiannual reporting                                     cost); or (3) a finding that expenditure of
period.1 The phrase “questioned cost”                                       funds for the intended purpose is
means a cost that is questioned because of:                                 unnecessary or unreasonable. The phrase
(1) an alleged violation of a provision of a                                “disallowed cost” means a questioned cost
law, regulation, contract, or other                                         which management, in a management
requirement governing the expenditure of                                    decision, has sustained or agreed should
funds; (2) a finding, at the time of the                                    not be charged to the government.
audit, that such cost is not supported by




                                        REPORTS WITH QUESTIONED COSTS

                                                                             QUESTIONED
                                                                                COSTS                  UNSUPPORTED COSTS
              REPORT CATEGORY                             NUMBER           (IN THOUSANDS)                (IN THOUSANDS)
1. Reports with no management decision at the
   beginning of the reporting period                           5                           $707                    $684
2. Reports issued during the reporting
   period                                                      1                           $245                      $0
3. Subtotals (Item 1 plus Item 2)                              6                           $9532                   $684
4. Reports for which a management decision was
   made during the reporting period3
       a. Value of disallowed costs                            2                             $14                    $0
       b. Value of costs not disallowed                        1                              $3                    $0
5. Reports with no management decision
   at the end of the reporting period
   (Item 3 minus Item 4)                                       4                           $936                    $684
6. Reports with no management decision
   within 6 months of issuance                                 3                           $691                    $684
1
  See Appendix II for identification of audit reports involved.
2
  Difference due to rounding.
3
  IRS management disallowed only part of the questioned costs for one report (Reference No. 2004-10-117).




     30
                                                                                                       Audit Statistical Reports




                 Audit Reports With Recommendations That
                        Funds Be Put To Better Use

     Four reports with recommendations                                       pre-award reviews of contract
     that funds be put to better use were                                    agreements; (5) preventing erroneous
     issued during this semiannual reporting                                 payment of the following refundable
     period.1 The phrase “recommendation                                     credits: Earned Income Tax Credit and
     that funds be put to better use” means a                                Child Tax Credit; or (6) any other
     recommendation that funds could be                                      savings which are specifically
     used more efficiently if management                                     identified. The phrase “management
     took actions to implement and                                           decision” means the evaluation by
     complete the recommendation,                                            management of the findings and
     including: (1) reductions in outlays;                                   recommendations included in an audit
     (2) deobligations of funds from                                         report and the issuance of a final
     programs or operations; (3) costs not                                   decision concerning its response to
     incurred by implementing                                                such findings and recommendations,
     recommended improvements related to                                     including actions concluded to be
     operations; (4) avoidance of                                            necessary.
     unnecessary expenditures noted in


                  REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                                                          AMOUNT
                             REPORT CATEGORY                                                           NUMBER         (IN THOUSANDS)

    1. Reports with no management decision at the beginning of the reporting period                         4             $345,256

    2. Reports issued during the reporting period                                                           4              $28,124

    3. Subtotals (Item 1 plus Item 2)                                                                       8             $373,3792

    4. Reports for which a management decision was made during the reporting period
         a. Value of recommendations to which management agreed
             i. Based on proposed management action                                                         6              $68,910
            ii. Based on proposed legislative action                                                        0                   $0
         b. Value of recommendations to which management did not agree 3                                    1               $9,770

    5. Reports with no management decision at end of the reporting period (Item 3 minus Item 4)             2             $294,700

    6. Reports with no management decision within 6 months of issuance                                      2             $294700

1
  See Appendix II for identification of audit reports involved.
2
  Difference due to rounding.
3
  In one report (Reference No. 2004-30-171) IRS management agreed to a portion of the value of the recommendations. TIGTA concurs with the
  revised figure.




                                                                                                                                     31
Audit Statistical Reports




          Reports With Additional Quantifiable Impact On
                        Tax Administration

    In addition to questioned costs and             laws, regulations, and IRS policies and
    funds put to better use, the Office of          procedures.
    Audit has identified measures that
    demonstrate the value of audit                  Increased Revenue: Assessment or
    recommendations to tax administration           collection of additional taxes.
    and business operations. These issues
    are of interest to IRS and Treasury             Revenue Protection: Proper denial of
    executives, the Congress, and the               claims for refunds, including
    taxpaying public, and are expressed in          recommendations that prevent
    quantifiable terms to provide further           erroneous refunds or efforts to defraud
    insight into the value and potential            the tax system.
    impact of the Office of Audit’s products
    and services. Including this information        Taxpayer Privacy and Security:
    also promotes adherence to the intent           Protection of taxpayer financial and
    and spirit of the Government                    account information (privacy).
    Performance and Results Act (GPRA).             Processes and programs that provide
                                                    protection of tax administration,
    Definitions of these additional measures are:   account information, and organizational
                                                    assets (security).
    Taxpayer Rights and Entitlements at
    Risk: The protection of due process             Inefficient Use of Resources: Value of
    rights granted to taxpayers by law,             efficiencies gained from
    regulation, or IRS policies and                 recommendations to reduce cost while
    procedures. These rights most                   maintaining or improving the
    commonly arise when filing tax returns,         effectiveness of specific programs;
    paying delinquent taxes, and examining          resources saved would be available for
    the accuracy of tax liabilities. The            other IRS programs. Also, the value of
    acceptance of claims for and issuance of        internal control weaknesses that
    refunds (entitlements) are also included        resulted in an unrecoverable
    in this category, such as when taxpayers        expenditure of funds with no tangible or
    legitimately assert that they overpaid          useful benefit in return.
    their taxes.
                                                    Protection of Resources:
    Reduction of Burden on Taxpayers:               Safeguarding human and capital assets,
    Decreases by individuals or businesses          used by or in the custody of the
    in the need for, frequency of, or time          organization, from inadvertent or
    spent on contacts, record keeping,              malicious injury, theft, destruction, loss,
    preparation, or costs to comply with tax        misuse, overpayment, or degradation.




    32
                                                                                                             Audit Statistical Reports



    Reliability of Management                                                    The number of taxpayer accounts and
    Information: Ensuring the accuracy,                                          dollar values shown in the following
    validity, relevance, and integrity of                                        chart were derived from analyses of
    data, including the sources of data and                                      historical data, and are thus considered
    the applications and processing thereof,                                     potential barometers of the impact of
    used by the organization to plan,                                            audit recommendations. Actual results
    monitor, and report on its financial and                                     will vary depending on the timing and
    operational activities. This measure                                         extent of management’s implementation
    will often be expressed as an absolute                                       of the corresponding corrective actions,
    value (i.e., without regard to whether a                                     and the number of accounts or
    number is positive or negative) of                                           subsequent business activities impacted
    overstatements or understatements of                                         from the dates of implementation. Also,
    amounts recorded on the organization’s                                       a report may have issues that impact more
    documents or systems.                                                        than one outcome measure category.


                    REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION
                                            NUMBER OF          NUMBER OF TAXPAYER                 NUMBER            DOLLAR VALUE
OUTCOME MEASURE CATEGORY                    REPORTS1               ACCOUNTS                      OF HOURS           (IN THOUSANDS)             OTHER2
Taxpayer Rights and
Entitlements at Risk                               5                              323,411                                  $1,112,4263
Reduction of Burden
On Taxpayers                                       4                              90,042               50,000                                    *
Increased Revenue                                  5                           9,904,015                                 $12,023,9904
Revenue Protection                                 1                              21,929                                      $3,310
Taxpayer Privacy and
Security                                           1                                    14
Inefficient Use of
Resources                                          3                                                                         $54,3495
Protection of Resources                            0
Reliability of Management
Information                                        3                                   146                                   $681,4087
1
  See Appendix II for identification of audit reports involved.
2
  Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of hours, and dollar value. These
  outcome measures are described in the footnote marked * below.
3
  In one report (Reference No. 2005-30-022), IRS management did not agree with the $855 million in reported benefits to taxpayers
  because the IRS does not believe that they are obligated to file returns on the taxpayers’ behalf. In a second report (Reference No. 2005-
  40-039), IRS management did not agree with the methodology used to calculate the projected $20.8 million of Earned Income Tax Credit
  improperly denied.
4
  In three reports (Reference Nos. 2005-30-029, 2005-30-048, and 2005-30-053), IRS management did not concur with TIGTA’s
  estimates of increased revenue totaling $538.4 billion
5
  In three reports (Reference Nos. 2005-20-004, 2005-10-037, and 2005-10-070), IRS management did not agree with the $54.3 million in
  inefficient use of resources.
6
  In one report (Reference No. 2005-40-018), IRS management believes that the Customer Accuracy measure should not include the 14
   potential disclosure errors.
7
  In one report (Reference No. 2005-10-037), IRS management asserted that they established an adequate basis for the $680 million in
  projected costs savings.
*Other measures of taxpayer burden consist of 8,637 notices with unclear explanations (Reference No. 2005-40-015) and 480,000
  communications to taxpayers which were incomplete, inaccurate, or unclear (Reference No. 2005-40-039).




                                                                                                                                           33
     CURRENCY WAGON, EAST SIDE OF TREASURY BUILDING, 1904




34
                                                                                       Investigations
                                                                                       Statistical Reports



     INVESTIGATIONS STATISTICAL
              REPORTS


Complaints/Allegations                                            Investigations Opened
Received By TIGTA                                                 And Closed

Against IRS Employees:                                 2,337      Total Opened:                  1,700
Against Non-Employees:                                 1,492      Total Closed:                  1,654

TOTAL COMPLAINTS/
     ALLEGATIONS:                                      3,829




Status Of                                                         Financial
Complaints/Allegations                                            Accomplishments
Received By TIGTA
                                                                  Embezzlement/Theft
Investigations Initiated:        1,275                            Funds Recovered:           $ 11,416
                          1                                       Court Ordered Fines,
In Process Within TIGTA:           244
Referred to IRS for Action:        307                            Penalties and Restitution: $1,937,348
Referred to IRS for Information: 1,004                            Out-of-Court Settlements: $         0
Referred to a Non-IRS Entity:2       6
Closed/No Referral:                804                            TOTAL FINANCIAL
Closed/All Actions Completed:      189                            ACCOMPLISHMENTS:           $1,948,764

TOTAL COMPLAINTS/
     ALLEGATIONS:                                      3,829




1
  Complaints for which final determination had not been
   made at the end of the reporting period.
2
  A non-IRS entity includes other law enforcement entities or
  Federal agencies.
  Note: The IRS made 59 referrals to TIGTA that would
  more appropriately be handled by the IRS and, therefore,
  were returned to the IRS. These are not included in the total
  complaints/allegations shown above.




                                                                                                       35
Investigations
Statistical Reports




                                           STATUS OF CLOSED CRIMINAL INVESTIGATIONS

     CRIMINAL REFERRALS1                           EMPLOYEE                            NON-EMPLOYEE                                 TOTAL
    Referred – Accepted for
    Prosecution                                           41                                      90                                   131
    Referred – Declined for
    Prosecution                                         368                                     238                                    606
    Referred – Pending
    Prosecutorial Decision                                37                                      59                                    96
    TOTAL CRIMINAL
    REFERRALS                                           446                                     387                                    833

    No Referral                                         501                                     358                                    859
1
    Criminal referrals include both Federal and State dispositions.




                                                            CRIMINAL DISPOSITIONS1

                                                         EMPLOYEE                      NON-EMPLOYEE                                 TOTAL

    Guilty                                                      18                                74                                   92

    Nolo-Contendere (no contest)                                 1                                 0                                    1

    Pre-trial Diversion                                          7                                19                                   26

    Deferred Prosecution                                         1                                 9                                   10

    Not Guilty                                                   0                                 1                                    1

    Dismissed                                                    1                                10                                   11

    TOTAL CRIMINAL
    DISPOSITIONS                                                28                              113                                  141
1
    This chart includes statistics on final criminal dispositions during the reporting period. This data may pertain to investigations referred
    criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
    Investigations table above.




        36
                                                                                                                        Investigations
                                                                                                                        Statistical Reports




                     ADMINISTRATIVE DISPOSITION ON CLOSED TIGTA INVESTIGATIONS1

    Removed, Terminated or Other                                                                                                204

    Suspended/Reduction in Grade                                                                                                 65

    Oral or Written Reprimand/Admonishment                                                                                       71

    Closed – No Action Taken                                                                                                    129

    Clearance Letter Issued                                                                                                     112

    Employee Resigned Prior to Adjudication                                                                                      85

    TOTAL ADMINISTRATIVE DISPOSITIONS                                                                                           666

1
    This chart includes statistics on final administrative dispositions during the reporting period. This data may pertain to investigations
    referred administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
    Opened and Closed statistics on page 35.




                                                                                                                                               37
     ROOFTOP VIEW OF WEST FAÇADE, TREASURY BUILDING,
              WHITE HOUSE IN FOREFRONT, 1907




38
                                                                                                     Audit Statistical
                                                                                                     Reports - Other




               APPENDIX I – STATISTICAL
                   REPORTS – OTHER
            Audit Reports With Significant Unimplemented
                          Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described in
previous semiannual reports in which corrective actions have not been completed. The following list is
based on information from the IRS Office of Management Control’s automated tracking system
maintained by Treasury management officials.




                               PROJECTED              REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                      COMPLETION         (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED          DATE                              P = PLAN NUMBER)
   093602        April 1999                  The Internal Revenue Service Needs To Improve Treatment of Taxpayers During
                                             Office Audits

                                 10/01/05    F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the MACS
                                             Development Center to district offices are properly accounted for and secured.

 2000-30-059    March 2000                   The Internal Revenue Service Can Improve the Estate Tax Collection Process

                                 05/15/05    F-2, R-2, P-1. Develop procedures to periodically reconcile tax liens on the ALS with
                                             information shown on the taxpayer accounts.
                                 05/15/05    F-2, R-3, P-1. Clarify procedures to employees that all estate tax liens should be
                                             recorded on the ALS.
 2000-30-130     September                   Opportunities Exist to Enhance the International Field Assistance Specialization
                   2000                      Program

                                 10/15/05    F-2, R-1, P-1. Improve the management information system by linking the
                                             International Field Assistance Specialization Program indicator to specific issues
                                             listed in the International Case Management System.

 2000-30-162     September                   The Internal Revenue Service Needs to Better Address Bankruptcy Automatic Stay
                   2000                      Violations

                                 11/15/06    F-1, R-2, P-1. Provide additional computer programming enhancements to improve
                                             the value of litigation transcripts.

 2001-10-027    January 2001                 Improved Case Monitoring and Taxpayer Awareness Activities Can Enhance the
                                             Effectiveness of the Tax Practitioner Disciplinary Proceedings Program

                                 09/15/05    F-1, R-1, P-1. Upgrade the automated case management system to provide more
                                             timely and accurate data on case activities and the use of program resources.

 2001-20-043   February 2001                 Electronic Signature Initiatives Could Be Better Defined and Evaluated

                                 06/01/06    F-1, R-2, P-1. Ensure that all operational alternative signature initiatives comply with
                                             the requirements.




                                                                                                                              39
Audit Statistical
Reports – Other




                                PROJECTED             REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                       COMPLETION        (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER           ISSUED          DATE                             P = PLAN NUMBER)
  2001-30-052    March 2001                  Program Improvements Are Needed to Encourage Taxpayer Compliance in
                                             Reporting Foreign Sourced Income

                                  05/15/05   F-1, R-1, P-1. Ensure the prior recommendations are implemented. Establishing a
                                             formal program with goals, objectives, processes and measures could help ensure that
                                             sufficient management attention is devoted to improving the use of the Routine
                                             Exchange of Information Program for compliance.
                                  05/15/05   F-2, R-1, P-1. Identify the highest risk foreign sourced income documents and use
                                             them to coordinate with tax treaty partners to positively identify the U.S. taxpayers
                                             involved.
                                  01/01/07   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on foreign
                                             sourced income.

  2002-30-156       September                The Internal Revenue Service Does Not Penalize Employers that File Wage and
                      2002                   Tax Statements with Inaccurate Social Security Numbers

                                  10/15/05   F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in their response to our
                                             memorandum dated February 1, 2002, a regularly scheduled program for proposing
                                             penalties for Forms W-2 with inaccurate name/SSN combinations.

  2002-10-187       September                The New Suspension of Interest Provision Is Not Always Calculated Correctly
                      2002
                                  05/15/05   F-2, R-2, P-1. Identify disaster relief taxpayers and refund the amounts that were
                                             automatically collected on the under assessed interest.

  2003-40-023       November                 Trends in Customer Service in the Taxpayer Assistance Centers Show Procedural
                      2002                   and Training Causes for Inaccurate Answers to Tax Law Questions

                                  10/01/05   F-5, R-2, P-1. Explore other options such as the planned remote monitoring by TAC
                                             managers, for conducting quality reviews of TAC employees on a regular basis.

  2003-20-035       December                 Additional Cost Savings and Increased Productivity in the Print Operation and
                      2002                   Computer Support Function Can Be Achieved at the Campus Locations

                                  06/15/05   F-1, R-1, P-1. Increased coordination should be required with users to discontinue
                                             printing reports that are currently available in both printed and electronic format and
                                             convert additional reports to the EONS.
                                  06/01/05   F-2, R-3, P-1. Ensure that managers compare results against performance measure
                                             goals and take actions to improve operational efficiency.

  2003-20-049   February 2003                Employee Background Investigations Were Normally Completed; However, the
                                             Contractor Employee Background Investigation Program Needs Improvement

                                  06/15/05   F-2, R-3, P-1. Ensure that all contractor employees have properly paid their tax
                                             obligations.
                                  12/15/05   F-2, R-5, P-2. Ensure that personnel in the Real Estate and Facilities area of the
                                             Agency-Wide Shared Services are adequately trained regarding the requirements for
                                             issuing a contractor employee an IRS identification badge.
                                  10/15/05   F-3, R-1, P-1. Ensure that a consolidated or integrated system is implemented to
                                             effectively manage all background investigations and identification badges,
                                             incorporating the needs of all stakeholders and eliminating the use of stand-alone
                                             systems such as the Security Entry Tracking System and the Procurement
                                             Background Investigation Program.
                                  10/15/05   F-3, R-2, P-1. Ensure that until a single system is implemented, all COTRs are
                                             required to use the Procurement Background Investigation Program regardless of
                                             their organizational placement, and complete periodic reconciliations between the
                                             contractor employee background investigation information and the identification
                                             badge information at each IRS facility are conducted to detect the issuance of
                                             contractor employee identification badges without completion of required
                                             background investigations.




    40
                                                                                                          Audit Statistical
                                                                                                          Reports – Other



                            PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                   COMPLETION           (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER        ISSUED         DATE                                P = PLAN NUMBER)
2003-10-054   March 2003                    The Internal Revenue Service Needs to Establish an Effective Process to
                                            Accurately Identify, Record, and Report Unemployment Trust Fund Administrative
                                            Expenses

                              10/01/07      F-1, R-3, P-1. Ensure that the ability to record and report trust fund administrative
                                            expenses, as currently envisioned in the IFS development plans is properly
                                            implemented.

2003-10-094   March 2003                    Improvements Are Needed in the Monitoring of Criminal Investigation Controls
                                            Placed on Taxpayers’ Accounts When Refund Fraud is Suspected

                              04/15/05      F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund Program are
                                            conducted to assess compliance with procedures and that feedback is provided
                                            regarding program effectiveness. Also, analyses of the FDCs’ control listing data
                                            should be analyzed to ensure reviews are done and accounts are resolved.

2003-20-082   March 2003                    Penetration Test of Internal Revenue Service Computer Systems

                              02/01/05      F-5, R-1, P-1. Apply proper security patches and/or registry settings.

2003-40-139    June 2003                    Opportunities Exist to Improve the Administration of the Earned Income Tax
                                            Credit

                              08/15/05      F-1, R-2, P-1. Establish a consistent method to measure progress toward the EITC
                                            Program’s long-term goals.

2003-20-118    July 2003                    Security Over Computers Used in Telecommuting Needs to Be Strengthened

                              06/30/05      F-1, R-6, P-1. Require front-line managers to periodically check their employees’
                                            laptop computers to ensure that sensitive data are being stored and encrypted
                                            properly.
                              12/15/06      F-2, R-2, P-1, P-2. Consider installing personal firewall and IDS software on SDI
                                            laptop computers and require CSIRC to centrally monitor the generated logs.

2003-30-162   August 2003                   The Regulations for Granting Extensions of Time to File are Delaying the Receipt
                                            of Billions of Tax Dollars and Creating Substantial Burden for Compliant
                                            Taxpayers

                            P-1: 08/15/05   F-1, R-1, P-1, P-2. Revise the tax regulations applicable to individual taxpayers.
                            P-2: 07/15/05
                              08/15/05      F-1, R-2, P-1. Consider changing the regulations to eliminate the requirement for
                                            taxpayers to file an application with the IRS in order to receive extensions of time to
                                            file a tax return.
                              08/15/05      F-1, R-3, P-1. Revise the tax package instructions.

2003-30-176   August 2003                   Interest Paid to Large Corporations Could Significantly Increase Under a
                                            Proposed New Revenue Procedure

                              11/15/05      F-1, R-2, P-1. Gather pertinent information concerning the effect the proposed
                                            procedure will have on reducing the length of examinations and interest costs by
                                            conducting a pilot program to demonstrate the actual benefits that could be achieved.

2003-40-180   August 2003                   More Information Is Needed to Determine the Effect of the Automated
                                            Underreporter Program on Improving Voluntary Compliance

                              07/15/06      F-2, R-1, P-1. Improve the current management information system process to
                                            capture data sufficient to establish baselines and long-term measures and goals.

2003-10-201   September                     Lead Development Centers Do Not Significantly Contribute to Increases in Legal
                2003                        Source Cases

                              07/01/05      F-3, R-1, P-1. Ensure that the data in the LDC database are consistent and issue
                                            instructions on how to use the LDC database.




                                                                                                                               41
Audit Statistical
Reports – Other




                                PROJECTED              REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                       COMPLETION         (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER             ISSUED        DATE                              P = PLAN NUMBER)
  2003-10-212       September                 Information on Employee Training Is Not Adequate to Determine Training Cost or
                      2003                    Effectiveness

                                  P-1, P-2:   F-3, R-2, P-1, P-2, P-3, P-4. Ensure the IRS training and financial systems can
                                  07/15/05    provide information needed for the IRS to assess its own training efforts.
                                  P-3, P-4:
                                  10/15/05

  2003-20-219       September                 The Cost and Schedule Estimation Process for the Business Systems
                      2003                    Modernization Program Has Been Improved, But Additional Actions Should Be
                                              Taken

                                  04/01/05    F-1, R-4, P-1. Ensure that the SEI is requested to conduct an independent review of
                                              the cost and schedule estimation system once the initial validation is complete and
                                              policies and procedures are fully implemented.


  2004-20-001   October 2003                  Risks Are Mounting As the Integrated Financial System Project Team Strives to
                                              Meet An Aggressive Implementation Date

                                  11/15/05    F-2, R-1, P-1. Ensure the disaster recovery environment is completely built-out and
                                              tested.

  2004-40-004   October 2003                  The Selection of Earned Income Tax Credit Returns for Examination can Be
                                              Improved to Further Prevent Payment of Erroneous Claims

                                  02/15/06    F-1, R-1, P-1. Complete an analysis of the historical Dependent Database
                                              examination data to determine if there is a relationship between the direct
                                              examination time, rules identified, and disposition of examinations.
                                  02/15/06    F-1, R-2, P-1. Incorporate a cost benefit analysis into the Dependent Database Risk-
                                              Based Scoring Model.


  2004-40-013       November                  Improvements Are Needed in the Screening and Monitoring of E-File Providers to
                      2003                    Protect Against Filing Fraud

                                  01/01/07    F-1, R-2, P-1. Enhance the screening procedures for E-File Providers to include
                                              sending scanned fingerprints to the FBI electronically.
                                  01/01/06    F-1, R-3, P-1. Enhance the screening procedures for E-File Providers to include
                                              verifying that individuals who provide professional certifications in lieu of a
                                              fingerprint card are in current standing with the organization to which the professional
                                              certification relates.


  2004-20-027   January 2004                  Inadequate Accountability and Training for Key Security Employees Contributed
                                              to Significant Computer Security Weaknesses

                                  09/30/05    F-1, R-1, P-2. Develop a methodology to evaluate system administrators’ and
                                              security specialists’ performance of their roles and responsibilities.
                                  09/30/05    F-1, R-2, P-4. Ensure the current effort to identify security training needs will result
                                              in appropriate security training for employees with key security duties.


  2004-30-038   January 2004                  Access to the Toll-Free Telephone System Was Significantly Improved in 2003, But
                                              Additional Enhancements Are Needed

                                  12/15/05    F-3, R-1, P-1. Develop an Activity Based Costing system that reliably captures and reports
                                              both the total cost and the cost-per-call of providing services on each
                                              toll-free product line.




    42
                                                                                                         Audit Statistical
                                                                                                         Reports – Other



                            PROJECTED             REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                   COMPLETION        (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER        ISSUED         DATE                             P = PLAN NUMBER)
2004-20-063   March 2004                 Insufficient Contractor Oversight Put Data and Equipment at Risk

                              02/01/05   F-1, R-1, P-3. Ensure the PRIME contractor’s access privileges are limited to only
                                         those required to accomplish their responsibilities.
                              06/30/05   F-2, R-1, P-1. Ensure COTRs and security administrators carry out their
                                         responsibilities to periodically review contractor compliance with established security
                                         standards and controls.

2004-30-068   March 2004                 Additional Efforts Are Needed to Improve the Bank Secrecy Act Compliance
                                         Program

                              02/15/06   F-2, R-1, P-1. Develop standard risk-based case selection criteria that would provide
                                         minimum requirements and parameters for case selection.
                              07/15/05   F-2, R-2, P-1. Reinforce the importance of case documentation with specific
                                         instructions or case models and implement a centralized quality review process.


2004-40-098    May 2004                  Better Use of the National Account Profile During Returns Processing Can
                                         eliminate Erroneous Payments

                              01/15/06   F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax returns for
                                         individuals that have been claimed for EITC purposes that are 20 or more years older
                                         than the primary taxpayer, or are listed as children that are up to 19 years older than
                                         the primary taxpayer.

2004-30-106    June 2004                 Changes to the Regulations for Granting Extensions of Time to File Corporate Tax
                                         Returns Are Needed to Alleviate Significant Problems With Administering the Tax Laws

                                         F-1, R-1, P-1. Revise the tax regulations applicable to corporations to eliminate the
                              08/15/05   requirement that corporations make tentative estimates of their tax liabilities to obtain an
                                         extension of time to file.
                                         F-1, R-2, P-1. Revise the tax regulations applicable to corporations to grant extensions of
                              08/15/05   time to file only to payment-compliant corporations.
                                         F-1, R-4, P-1. Revise the tax regulations applicable to corporations to establish safeguards
                              08/15/05   to protect reasonable compliant corporations from unwarranted assessments of the
                                         delinquency penalty.
                                         F-1, R-5, P-1. Revise the tax regulations applicable to corporations to provide for the
                              08/15/05   assessment of the delinquency penalty on all taxes not paid by the normal tax return due
                                         date.
                                         F-1, R-7, P-1. Consider changing the regulations to eliminate the requirement that taxable
                              08/15/05   corporations must apply to the IRS to receive extensions of time to file tax returns.
                                         F-1, R-8, P-1. Develop a legislative proposal for submission to the Treasury Department to
                                         change the Internal Revenue Code to require assessments of the higher interest and Failure
                              08/15/05   to Pay penalties.


2004-30-127   August 2004                The Return Delinquency Notice Program Could Be Used More Effectively to
                                         Promote Filing Compliance and Reduce the Tax Gap

                              01/15/07   F-2, R-1, P-1, P-2. Reevaluate the administrative dollar tolerance for freezing refunds
                                         to determine if it can be reset at a lower level.
                              06/15/05   F-2, R-2, P-1, P-2. Expand the management information reports to provide data for
                                         measuring program effectiveness and results and for setting workload selection
                                         tolerance levels.




                                                                                                                              43
Audit Statistical
Reports – Other




                                PROJECTED             REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                       COMPLETION        (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER          ISSUED           DATE                             P = PLAN NUMBER)
  2004-20-129   August 2004                  The Certification and Accreditation of Computer Systems Should Remain in the
                                             Computer Security Material Weakness

                                  12/31/05   F-1, R-1, P-2. Keep the certification and accreditation of computer systems as part of
                                             the computer security material weakness until a sufficient number of systems has
                                             been certified and accredited.

  2004-20-135   August 2004                  The Audit Trail System for Detecting Improper Activities on Modernized Systems
                                             Is Not Functioning

                                  12/15/05   F-1, R-2, P-1. Ensure alternatives are developed for reviewing audit trails for
                                             modernized application in the event the SAAS deficiencies cannot be corrected.
                                             F-2, R-1, P-1. Ensure the SAAS operating procedures are fully developed and
                                  05/15/05   finalized so that business units can conduct effective and efficient audit trail reviews
                                             of modernized applications.
                                             F-2, R-2, P-1. Ensure periodic compliance reviews are conducted once the SAAS is
                                  08/30/05   functional to ensure the CSIRC and business unit managers carry out their roles and
                                             responsibilities to review audit trails.

  2004-40-151   August 2004                  The Effectiveness of the Kiosk Program Cannot Be Determined

                                  08/15/05   F-1, R-1, P-1, P-2. Develop guidelines and strategies to enable the efficient and
                                             effective oversight of the Kiosk Program.

  2004-20-131       September                The Use of Audit Trails to Monitor Key Networks and Systems Should Remain
                      2004                   Part of the Computer Security Material Weakness

                                  06/01/05   F-1, R-2, P-1, P-2. Continue updating and implementing the Tier 2 eTrust audit trail
                                             software on all applicable servers and ensure audit trails are being regularly generated
                                             and reviewed.
                                  01/01/06   F-2, R-2, P-1. Keep the audit trails area as part of the computer security material
                                             weakness until critical applications are removed from Tier 2 unconsolidated UNIX
                                             servers or consolidated into a more secure environment.
                                             F-2, R-4, P-1. Develop and implement a reasonable approach for reviewing audit
                                  06/01/05   trails over major applications.


  2004-30-133       September                The Controls for Examination Processes for Industry Cases With International
                      2004                   Transfer Pricing Issues Can Be Improved

                                  08/15/05   F-1, R-1, P-1. Reemphasize the Transfer Pricing Compliance Directive and
                                             incorporate it into the Internal Revenue Manual.




    44
                                                                                                       Audit Statistical
                                                                                                       Reports – Other



                          PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                 COMPLETION           (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER       ISSUED        DATE                                P = PLAN NUMBER)
2004-20-155   September                   Computer Security Roles and Responsibilities and Training Should Remain Part of
                2004                      the Computer Security Material Weakness

                            10/15/05      F-1, R-1, P-1. Keep security roles and responsibilities as part of the computer
                                          security material weakness until corrective actions related to recommendations in a
                                          previous report have been addressed.
                            10/15/05      F-2, R-1, P-1. Complete actions to correct weaknesses regarding segregation of
                                          duties and remove this area from the computer security material weakness.
                                          F-3, R-1, P-1. Keep the security training area as part of the computer security
                            10/15/05      material weakness until all employees with key security responsibilities have been
                                          adequately trained.
                                          F-3, R-2, P-1. Establish a process to identify employees with key security
                            10/15/05      responsibilities, monitor their participation in training courses, and follow up with
                                          managers, if necessary.
                                          F-3, R-3, P-1, P-2, P-3. Ensure employees with key security responsibilities are
                          P-1: 07/15/05   adequately trained to perform security duties and tasks.
                          P-2: 11/01/05
                          P-3: 12/15/05

2004-20-158   September                   Network Access, System Access, and Software Configuration Should Remain Part
                2004                      of the Computer Security Material Weakness

                            10/15/05      F-1, R-1, P-1. Keep the network access control area as part of the computer security
                                          material weakness until the IRS can demonstrate a repeatable process for ensuring
                                          router configurations are secure.
                            01/15/05      F-1, R-2, P-1. Periodically follow up to ensure the Enterprise Networks organization
                                          complies with router standards and has a change management system to document
                                          changes to routers.
                            10/15/05      F-2, R-1, P-1. Keep any applications and system access as part of the computer
                                          security material weakness until the IRS has demonstrated an effective, repeatable
                                          process for testing and correcting vulnerabilities.
                            09/01/05      F-2, R-4, P-1, P-3. Test operating system access controls on CI, Counsel, and
                                          Appeals function systems.
                            10/15/05      F-3, R-1, P-1. Keep system software configuration as part of the computer security
                                          material weakness until configuration management procedures are implemented and
                                          working as intended in the UNIX environment.

2004-10-166   September                   The Taxpayer Advocate Service Needs to Improve Case Management to Ensure
                2004                      Taxpayer Problems Are Resolved Timely

                            01/15/06      F-2, R-1, P-1. Alert TAS managers that case advocates are not closing cases after all
                                          actions are completed.
                            09/15/05      F-3, R-1, P-4. Provide additional guidance to case advocates on communicating with
                                          IRS operating divisions to coordinate case resolution and set achievable deadlines for
                                          completing Operations Assistance Requests.




                                                                                                                           45
Audit Statistical
Reports – Other




                                PROJECTED             REPORT TITLE AND RECOMMENDATION SUMMARY
REFERENCE                       COMPLETION        (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
 NUMBER             ISSUED        DATE                             P = PLAN NUMBER)
  2004-10-182       September                The Internal Revenue Service Faces Significant Challenges to Reduce Underused
                      2004                   Office Space Costing $84 Million Annually

                                  10/15/05   F-1, R-2, P-1. Justify the funding request for space for anticipated new hires by
                                             maximizing the use of existing space to house the new employees and determine the
                                             funding request based on anticipated needs.
                                  10/01/06   F-2, R-3, P-1. Consider allocating rent funds to the operating divisions to help ensure
                                             more efficient use of space and more communication between the facility managers
                                             and the local operating divisions; consider incentives and consequences to ensure
                                             better cooperation.
                                  10/15/06   F-3, R-1, P-1. Require facility managers to report vacancies based on division
                                             requirements for telecommuting employees.




                                Statistical Reports – Other
    Access to Information
    The Inspector General Act of 1978 requires Inspectors General to report unreasonable refusals
    of information available to the agency that relate to programs and operations for which the
    Inspector General has responsibilities. As of March 31, 2005, there were no instances where
    information or assistance requested by the Office of Audit was refused.

    Disputed Audit Recommendations
    The Inspector General Act of 1978 requires Inspectors General to provide information on
    significant management decisions in response to audit recommendations with which the Inspector
    General disagrees. As of March 31, 2005, there were no reports issued where a significant
    recommendation was disputed.

    Revised Management Decisions
    The Inspector General Act of 1978 requires Inspectors General to provide a description and
    explanation of the reasons for any significant revised management decisions made during the
    reporting period. As of March 31, 2005, no significant management decisions were revised.

    Audit Reports Issued in the Prior Reporting Period With No Management Response
    The Inspector General Act of 1978 requires Inspectors General to provide a summary of each
    audit report issued before the beginning of the current reporting period for which no
    management response has been received by the end of the current reporting period. As of
    March 31, 2005, there were no prior reports where management’s response was not received.

    Review of Legislation and Regulations
    The Inspector General Act of 1978 requires Inspectors General to review existing and
    proposed legislation and regulations and to make recommendations concerning the impact of
    such legislation or regulations. TIGTA’s Office of Chief Counsel reviewed 131 proposed
    regulations and legislative requests during this reporting period.




    46
                                                                                                      Audit Products




       APPENDIX II – AUDIT PRODUCTS


                       October 1, 2004 – March 31, 2005


                                              AUDIT PRODUCTS
REFERENCE
 NUMBER                                           REPORT TITLE
                                                 OCTOBER 2004
2005-40-001   Injured Spouse Guidance Is Not Consistent
              TIRNO-00-D-00020 and TIRNO-95-D-00066 Cumulative Allowance Cost Worksheet Fiscal
2005-1C-002
              Year Ended June 30, 2002
2005-1C-003   Final Vouchers Audit for TIRNO-95-D-00065
2005-10-009   Progress Has Been Made in Improving the Financial Management of Reimbursable Work Authorizations
              Initial Results of the Fiscal Year 2004 Earned Income Tax Credit Concept Tests Provide Insight on Ways
2005-40-006   Taxpayer Burden Can Be Reduced in Future Tests (Taxpayer Burden: 19,769 taxpayers receiving untimely
              replies from the IRS or that would not be subjected to the FY 2005 filing status test)
              The Wage and Investment Division’s Automated Underreporter Program Effectively Monitored
2005-40-008
              Performance Data to Meet Annual Program Goals
              The Business Systems Development Organization Can Improve Management of Information Services
2005-20-004   Requests (Funds Put to Better Use: $20,000; Inefficient Use of Resources: $3 million) Note: monetary
              benefit projected over a 5-year period.
              The Wage and Investment Division’s Discretionary Examination Program Effectively Monitored
2005-40-007
              Performance Data to Meet Annual Program Goals
                                                NOVEMBER 2004
              The High Income Taxpayer Strategy Was Effectively Implemented, Although Its Success Still Needs to Be
2005-30-012
              Determined
              Implementation of the Collection Field Function Consultation Initiative Was Carefully Coordinated, but Some
2005-30-011
              Aspects Could Be Enhanced
              To Ensure the Customer Account Data Engine’s Success, Prescribed Management Practices Need to Be
2005-20-005
              Followed
              The Internal Revenue Service Is Making Progress in Addressing Compliance Among Small Businesses Engaged
2005-30-010
              in Electronic Commerce
                                                DECEMBER 2004
              Improvements Are Needed in the Timeliness and Accuracy of Offers in Compromise Processed by Field
2005-30-013   Offer Groups (Increased Revenue: $135,000 for 11 taxpayers; Taxpayer Rights and Entitlements: $5,000
              for 1 taxpayer)
              The Internal Revenue Service Should Ensure the Root Causes of Business Systems Modernization
2005-20-014
              Performance Problems Are Successfully Addressed
              Application of the Earned Income Credit Two-Year Ban Could Be More Consistent, Accurate, and Clear
              to Taxpayers (Taxpayer Burden: 8,637 notices with unclear explanations and 3,235 taxpayers that either
2005-40-015
              may not have understood which years were banned or what was required to recertify; Taxpayer Rights and
              Entitlements: 384 taxpayers with Earned Income Tax Credit banned in error)




                                                                                                                      47
  Audit Products




                                              AUDIT PRODUCTS
REFERENCE
 NUMBER                                           REPORT TITLE
2005-40-017   The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing Season
              Toll-Free Account Assistance to Taxpayers Is Professional and Timely, and the Quality of Information
              Provided Has Improved (Taxpayer Burden: 38 incorrect answers; Taxpayer Privacy and Security: 14 calls
2005-40-018
              not authenticated; Reliability of Information: 14 non-authenticated calls not included in the Customer
              Accuracy measure)
              System Requirements Were Not Adequately Managed During the Testing of the Custodial Accounting
2005-20-019
              Project
2005-10-020   The Exempt Organizations Function’s Market Segment Approach Needs Further Development
              The 2004 Filing Season Was Completed Timely and Accurately, but Some Tax Law Changes Have Not
2005-40-016   Been Effectively Implemented (Revenue Protection: $3.3 million for 21,929 taxpayers; Taxpayer Rights
              and Entitlements: $151.6 million for 286,169 taxpayers)
2005-40-021   Customer Service at the Taxpayer Assistance Centers Is Improving but Is Still Not Meeting Expectations
                                                 JANUARY 2005
2005-40-025   Opportunities Exist to Improve Tax Software Packages
              The Method of Tracking Corrective Actions for Known Security Weaknesses Has Not Been Adequately
2005-20-027
              Developed
              The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
2005-20-023
              Development and Management Problems (Funds Put to Better Use: $1.25 million)
              Enhancing Internal Controls for the Internal Revenue Service’s Excess Collections File Could Improve
2005-30-022
              Case Resolution (Taxpayer Rights and Entitlements: $931 million for 57 taxpayers)
                                                FEBRUARY 2005
              Processes Used to Ensure the Accuracy of Information for Individual Taxpayers on IRS.gov Need
2005-40-026
              Improvement
              Security Controls for the Counsel Automated System Environment Management Information System
2005-20-036
              Could Be Improved
              The Department of the Treasury’s HR Connect Human Resources System Was Not Effectively
2005-10-037   Implemented (Inefficient Use of Resources: $41 million; Reliability of Information; $680 million of
              overstated benefits)
              The Internal Revenue Service Has Appropriate Processes to Accept Modernization Program Software
2005-20-028
              From Developers
2005-1C-030   Compensation System Audit
2005-1C-031   Report on Follow-Up Audit of Labor Accounting System
              Report on Application of Agreed-Upon Procedures – Quick Closeout for Contract Number
2005-1C-032
              TIRNO-95-D-00065, Delivery Order Number 0015
              Review of the Exempt Organizations Function Process for Reviewing Alleged Political Campaign
2005-10-035
              Intervention by Tax Exempt Organizations
              The Limited Issue Focused Examination Process Has Merit, but Its Use and Productivity Are Concerns
2005-30-029
              (Increased Revenue: $1.7 billion) Note: monetary benefit projected over a 5-year period.
2005-40-041   Fiscal Year 2005 Statutory Review of Disclosure of Collection Activity With Respect to Joint Returns
2005-20-038   Sensitive Data Sent Via Email Is Adequately Protected, but Controls Could Be Streamlined
2005-40-040   Fiscal Year 2005 Statutory Review of Restrictions on Directly Contacting Taxpayers
                                                 MARCH 2005
              The Disaster Recovery Program Has Improved, but It Should Be Reported As a Material Weakness Due to
2005-20-024
              Limited Resources and Control Weaknesses




      48
                                                                                                     Audit Products




                                              AUDIT PRODUCTS
REFERENCE
 NUMBER                                           REPORT TITLE
2005-1C-034   Incurred Cost Audit for Fiscal Year 2000 (Questioned Costs: $245,116)
              The Earned Income Credit Recertification Program Continues to Experience Problems (Funds Put to
              Better Use: $26.5 million affecting 14,800 taxpayers; Taxpayer Rights and Entitlements: $29.8 million for
2005-40-039   36,800 taxpayers; Taxpayer Burden: 17,000 taxpayers unnecessarily audited, 50,000 taxpayers spending
              an average of 1 hour each to complete unnecessary tax forms, and 480,000 communications to taxpayers
              that were incomplete, inaccurate or unclear)
              While Progress Has Been Made, Managers and Employees Are Still Susceptible to Social Engineering
2005-20-042
              Techniques
              There Were No Administrative or Civil Actions With Respect to Violations of Fair Tax Collection
2005-10-051
              Practices in Calendar Year 2004
2005-1C-033   Accounting System Deficiencies Found During Incurred Cost Audit
              All Small-Scale Information Technology Projects Should Be Included in the Investment Inventory, and
2005-20-050   Related Procurement Requisitions Should Be Properly Reviewed and Approved (Reliability of
              Information: $1.4 million in project costs not accurately recorded)
              Procedures Regarding the Failure to Pay Tax Penalty Result in Inconsistent Treatment of Taxpayers and
2005-30-052   Hundreds of Millions of Dollars in Lost Revenue (Increased Revenue: $1.87 billion for 9.9 million
              taxpayers) Note: monetary benefit projected over a 5-year period.
              The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As of
2005-10-068
              December 31, 2004
2005-1C-043   Forward Pricing Indirect Rate Review for Fiscal Year 2003
2005-1C-044   Comprehensive Labor Audit for Fiscal Year 2004
              Report on Noncompliance With Cost Accounting Standard 410, Allocation of Business Unit General
2005-1C-045
              Administrative Expenses to Final Cost Objectives
2005-1C-047   Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2003 – Company 1
2005-1C-057   TIRNO-00-D-00024 Supplemental Report on Audit of Contractor’s Fiscal Year 2000 Incurred Costs
2005-1C-058   Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2003 – Company 6
2005-30-055   Trends in Compliance Activities Through Fiscal Year 2004
2005-1C-056   Report on Fiscal Year 2004 Labor Floor Checks
2005-20-069   Security Controls for the Appeals Centralized Database System Could Be Improved
              Stronger Sanctions Are Needed to Encourage Timely Filing of Pass-Through Returns and Ensure Fairness
2005-30-048   in the Tax System (Increased Revenue: $7.9 billion) Note: monetary benefit projected over a 5-year
              period.
              The Human Resources Investment Fund Is Not a Cost-Effective Method of Providing Tuition Assistance
2005-10-070   (Funds Put to Better Use: $353,720; Inefficient Use of Resources: $10.3 million) Note: monetary benefit
              projected over a 5-year period.
              Opportunities Exist to Improve the Effectiveness and Efficiency of the Automated 6020(b) Program
2005-30-053
              (Increased Revenue: $534.8 million) Note: monetary benefit projected over a 5-year period.
              The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
2005-10-054
              Challenges Remain




                                                                                                                    49
     DESTROYING OLD CURRENCY IN THE TREASURY MACERATOR, 1905




50
                                                                                  Statutory Reporting Requirements




APPENDIX III- TIGTA’S STATUTORY
   REPORTING REQUIREMENTS
TIGTA issued 13 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2005, TIGTA completed its seventh round of statutory
reviews that are required annually by the Internal Revenue Service Restructuring and Reform Act of 1998
(RRA 98). The following table reflects the status of the FY 2005 RRA 98 statutory reviews.


REFERENCE TO STATUTORY            EXPLANATION OF THE
      COVERAGE                        PROVISION                            COMMENTS/TIGTA AUDIT STATUS

Enforcement Statistics           Requires TIGTA to               Audit fieldwork in progress.
                                 evaluate the IRS’
Internal Revenue Code (I.R.C.)   compliance with
§ 7803(d)(1)(A)(i)               restrictions under section
                                 1204 of RRA 98 on the use
                                 of enforcement statistics to
                                 evaluate IRS employees.

Restrictions on Directly         Requires TIGTA to               Reference No. 2005-40-040, February 2005
Contacting Taxpayers             evaluate the IRS’               As in prior reviews, TIGTA could not determine whether
                                 compliance with restrictions    IRS employees followed proper procedures to stop an
I.R.C.                           under I.R.C. § 7521 on          interview if the taxpayer requested to consult with a
§ 7803(d)(1)(A)(ii)              directly contacting taxpayers   representative. Neither TIGTA nor the IRS could readily
                                 who have indicated they         identify cases where a taxpayer requested a representative or
                                 prefer their representatives    the IRS contacted the taxpayer directly and bypassed the
                                 be contacted.                   representative. IRS management information systems do not
                                                                 separately record or monitor direct contact requirements, and
                                                                 the Congress has not explicitly required the IRS to do so.
                                                                 TIGTA does not recommend the creation of a separate
                                                                 tracking system.


Filing of a Notice of Lien       Requires TIGTA to               Discussion draft audit report issued to IRS management.
                                 evaluate the IRS’
I.R.C.                           compliance with required
§ 7803(d)(1)(A)(iii)             procedures under I.R.C.
                                 § 6320 upon the filing of a
                                 notice of lien.

Extensions of the Statute of     Requires TIGTA to include       Audit fieldwork in progress.
Limitations for Assessment       information regarding
of Tax                           extensions of the statute of
                                 limitations for assessment
I.R.C.                           of tax under I.R.C. § 6501
§ 7803(d)(1)(C)                  and the provision of notice
                                 to taxpayers regarding the
I.R.C.                           right to refuse or limit the
§ 6501(c)(4)(B)                  extension to particular
                                 issues or a particular
                                 period of time.




                                                                                                                           51
Statutory Reporting Requirements




REFERENCE TO STATUTORY             EXPLANATION OF THE
      COVERAGE                         PROVISION                              COMMENTS/TIGTA AUDIT STATUS

Levies                            Requires TIGTA to                 Audit fieldwork in progress.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  § 6330 regarding levies.


Collection Due Process            Requires TIGTA to                 Audit fieldwork in progress.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iii) and (iv)     procedures under I.R.C.
                                  §§ 6320 and 6330 regarding
                                  the taxpayers’ rights to
                                  appeal lien or levy actions.

Seizures                          Requires TIGTA to                 Discussion draft audit report issued to IRS management.
                                  evaluate the IRS’
I.R.C.                            compliance with required
§ 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                  §§ 6330 through 6344 when
                                  conducting seizures.

Taxpayer Designations – Illegal   An evaluation of IRS’             Audit fieldwork in progress.
Tax Protester Designation and     compliance with
Nonfiler Designation              restrictions under
                                  section 3707 of RRA 98 on
I.R.C.                            designation of taxpayers.
§ 7803(d)(1)(A)(v)


Disclosure of Collection          Requires TIGTA to review          Reference No. 2005-40-041, February 2005
Activities With Respect to        and certify whether the IRS       This is the seventh year that TIGTA could not determine
Joint Returns                     is complying with I.R.C.          whether the IRS is complying with the statutory
                                  § 6103(e)(8) to disclose          requirements for responding to written requests from joint
I.R.C.                            information to an individual      filers, because both TIGTA and the IRS are still unable to
§ 7803(d)(1)(B)                   filing a joint return on          readily identify joint filer requests received nationwide. IRS
                                  collection activity involving     management has decided not to develop a new management
I.R.C.                            the other individual filing the   control process to track joint filer requests. IRS management
§ 6103(e)(8)                      return.                           information systems do not separately record or monitor joint
                                                                    filer requests, and the Congress has not explicitly required
                                                                    the IRS to do so. TIGTA does not recommend the creation
                                                                    of a separate tracking system.


Taxpayer Complaints               Requires TIGTA to include         Statistical results on the number of taxpayer
                                  in each of its Semiannual         complaints received are shown on page 35.
I.R.C.                            Reports to Congress the
§ 7803(d)(2)(A)                   number of taxpayer
                                  complaints received and the
                                  number of employee
                                  misconduct and taxpayer
                                  abuse allegations received
                                  by IRS or TIGTA from
                                  taxpayers, IRS employees
                                  and other sources.




     52
                                                                                     Statutory Reporting Requirements




REFERENCE TO STATUTORY              EXPLANATION OF THE
      COVERAGE                          PROVISION                             COMMENTS/TIGTA AUDIT STATUS

Administrative or Civil Actions    Requires TIGTA to include        Reference No. 2005-10-051, March 2005
With Respect to the Fair Debt      information regarding any        There were no administrative or civil actions with respect
Collection Practices Act of 1996   administrative or civil          to violations of fair tax collection practices in
                                   actions with respect to          Calendar Year 2004.
I.R.C.                             violations of the fair debt
§ 7803(d)(1)(G)                    collection provision of
                                   I.R.C. § 6304, including a
I.R.C.                             summary of such actions,
§ 6304                             and any resulting judgments
Section 3466 of                    or awards granted.
RRA 98

Denial of Requests for             Requires TIGTA to include        Audit fieldwork in progress.
Information                        information regarding
                                   improper denial of requests
I.R.C.                             for information from IRS,
§ 7803(d)(1)(F)                    based on a statistically valid
                                   sample of the total number
I.R.C.                             of determinations made by
§ 7803(d)(3)(A)                    the IRS to deny written
                                   requests to disclose
                                   information to taxpayers on
                                   the basis of I.R.C. § 6103 or
                                   5 U.S.C. § 552(b)(7).


Adequacy and Security of the       Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS              the IRS’ adequacy and            Reference Number 2005-20-004, October 2004
                                   security of its technology.      Reference Number 2005-20-005, November 2004
I.R.C.                                                              Reference Number 2005-20-014, December 2004
§ 7803(d)(1)(D)                                                     Reference Number 2005-20-019, December 2004
                                                                    Reference Number 2005-20-023, January 2005
                                                                    Reference Number 2005-20-028, February 2005
                                                                    Reference Number 2005-20-050, March 2005

                                                                    Security Reviews:
                                                                    Reference Number 2005-20-027, January 2005
                                                                    Reference Number 2005-20-036, February 2005
                                                                    Reference Number 2005-20-038, February 2005
                                                                    Reference Number 2005-20-024, March 2005
                                                                    Reference Number 2005-20-042, March 2005
                                                                    Reference Number 2005-20-069, March 2005




                                                                                                                                 53
     TREASURY BUILDING EVENING VIEW, 1907




54
                                                                               Section 1203 Standards




         APPENDIX IV – SECTION 1203
                 STANDARDS
In general, the Commissioner of Internal Revenue      •   Violating the Internal Revenue Code of 1986,
shall terminate the employment of any IRS                 Treasury regulations, or policies of the IRS
employee if there is a final administrative or            (including the Internal Revenue Manual) for
judicial determination that, in the performance of        the purpose of retaliating against, or harassing
official duties, such employee committed any              a taxpayer, taxpayer representative, or other
misconduct violations outlined below. Such                employee of the IRS;
termination shall be a removal for cause on
charges of misconduct.                                •   Willfully misusing provisions of Section 6103
                                                          of the Internal Revenue Code of 1986 for the
Misconduct violations include:                            purpose of concealing information from a
                                                          Congressional inquiry;
•   Willful failure to obtain the required approval
    signatures on documents authorizing the           •   Willfully failing to file any return of tax
    seizure of a taxpayer’s home, personal                required under the Internal Revenue Code of
    belongings, or business assets;                       1986 on or before the date prescribed
                                                          therefore (including any extensions), unless
•   Providing a false statement under oath with           such failure is due to reasonable cause and not
    respect to a material matter involving a              to willful neglect;
    taxpayer or taxpayer representative;
                                                      •   Willfully understating Federal tax liability,
•   Violating, with respect to a taxpayer, taxpayer       unless such understatement is due to
    representative, or other employee of the IRS,         reasonable cause and not to willful neglect; and
    any right under the Constitution of the United
    States, or any civil right established under      •   Threatening to audit a taxpayer for the
    Title VI or VII of the Civil Rights Act of            purpose of extracting personal gain or benefit.
    1964; Title IX of the Education Amendments
    of 1972; Age Discrimination in Employment         The Commissioner of Internal Revenue may
    Act of 1967; Age Discrimination Act of 1975;      mitigate the penalty of removal for the
    Section 501 or 504 of the Rehabilitation Act      misconduct violations outlined above. The
    of 1973; or Title I of the Americans with         exercise of this authority shall be at the sole
    Disabilities Act of 1990;                         discretion of the Commissioner and may not be
                                                      delegated to any other officer. The
•   Falsifying or destroying documents to             Commissioner, in his/her sole discretion, may
    conceal mistakes made by any employee             establish a procedure that will be used to
    with respect to a matter involving a              determine whether an individual should be
    taxpayer or taxpayer representative;              referred to the Commissioner for
                                                      determination. Any mitigation determination
•   Committing assault or battery on a                by the Commissioner in these matters may not
    taxpayer, taxpayer representative, or other       be appealed in any administrative or judicial
    employee of the IRS, but only if there is a       proceeding.
    criminal conviction, or a final judgment by
    a court in a civil case, with respect to the
    assault or battery;



                                                                                                       55
     VIEW OF PENNSYLVANIA AVENUE FROM THE SOUTH, FRONT TERRACE,
                      TREASURY BUILDING, 1930S




56
                                                                                  IRS Data Tables




           APPENDIX V – DATA TABLES
             PROVIDED BY THE IRS
The memorandum below is an IRS transmittal to TIGTA. The tables that follow contain
information exactly as provided by the IRS to TIGTA and consist of IRS employee misconduct
reports from the IRS Automated Labor and Employee Relations Tracking System (ALERTS).
Also, data concerning substantiated I.R.C. § 1203 allegations are included. IRS management
conducted inquiries into the cases reflected in these tables.




                                                                                              57
   IRS Data Tables




                              Report of Employee Misconduct for the Period
                                  October 01, 2004 to March 31, 2005
                                    Summary by Disposition Groups



                                    TIGTA             Administrative         Employee Tax            Background
         Disposition             Investigations           Cases               Matter Cases          Investigations            Total

 Removal                                        50                     72                    26                        1           149
 Separation of
 Probationary Employees                           5                   118                    25                      32            180
 Separation of Temporary
 Employees                                                              4                    10                      10             24
 Resignation/Retirement                         69                    104                    91                      30            294
 Suspensions                                    77                    205                    63                        7           352
 Reprimands                                     77                    330                   427                      16            850
 Counseling                                                           353                   808                      65          1,226
 Alternative Discipline                         20                     92                    33                        3           148
 Clearance                                     124                    115                    18                                    257
 Closed Without Action                         208                    441                   208                      92            949
 Closed Without Action
 (Caution Statement)                           126                     72                   140                      49            387
 Forwarded to TIGTA                                                    19                                                           19
 Total                                         756                 1,925                 1,849                      305          4,835

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01, January 14, 1999
Extract Date: Saturday, April 2, 2005 Report ID = T1R3a




   58
                                                                                                                                   IRS Data Tables




                                 Report of Employee Misconduct for the Period
                                     October 01, 2004 to March 31, 2005
                                             National Summary



                                                                                                Cases Closed
                                                                                                                       Non-
                               Opening          Conduct Cases                                                         Conduct        Closing
        Case Type             Inventory            Received                 Conduct Issues           Duplicates        Cases        Inventory

TIGTA Investigations
ROI1                                   570                        837                      (756)               (8)           (0)            643

Administrative Case2                   673                      2,493                    (1,925)             (11)            (7)         1,223

Employee Tax
Compliance Case3                     1,144                      2,050                    (1,849)             (52)            (0)         1,293

Background
Investigations4                        158                        262                      (305)               (1)           (0)            114

Total                                2,545                      5,642                    (4,835)             (72)            (7)         3,273

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01, January 14, 1999
Extract Date: Saturday, April 2, 2005 Report ID = T1R1




1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and referred a
  Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a matter of official
  interest.
4
  Background Investigations - Any matter involving an NBIC investigation into an employee's background that is referred to management for
  appropriate action.




                                                                                                                                                   59
        IRS Data Tables




                           Summary of Substantiated I.R.C. § 1203 Allegations
                                Recorded in ALERTS for the Period
                                 October 01, 2004 to March 31, 2005


                                                                                   Removed
                                                                                     On                                In
                                                Resigned/         Probation         Other           Penalty         Personnel
 § 1203 Violation             Removals14         Retired         Separation        Grounds          Mitigated        Process             Total
Seizure Without
Approval                                   0                0                 0                0               0                1                1
False Statement
Under Oath                                 0                0                 0                0               0                0                0
Constitutional &
Civil Rights Issues                        0                0                 0                0               0                1                1
Falsifying or
Destroying
Records                                    1                0                 0                0               0                0                1
Assault or Battery                         1                0                 0                0               0                0                1
Retaliate or Harass                        0                0                 0                0               0                1                1
Misuse of §6103                            0                0                 0                0               0                0                0
Failure to File
Federal Tax Return                        20                5                 9              11               42               69          156
Understatement of
Federal Tax
Liability                                  8                9                 2                3              27               47           96
Threat to Audit for
Personal Gain                              0               0                 0                0                0               0             0
Totals                                    30              14                11               14               69             119           257

Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board records.
Extract Date: Saturday, April 2, 2005




14
     The cases reported as "Removals" and "Penalty Mitigated" (see column above) do not reflect the results of any third party appeal.




        60
 Call our toll-free hotline to report
       fraud, waste, or abuse:

     1-800-366-4484
           by Web:
      www.treas.gov/tigta/

           or Write:
Treasury Inspector General for
     Tax Administration
         P.O. Box 589
     Ben Franklin Station
 Washington, D.C. 20044-0589


  Information is conﬁdential and
    you may remain anonymous
                 DEPARTMENT OF THE TREASURY
          Ofﬁce of the Inspector General for Tax Administration
                   1125 15th Street, NW, Room 700A
                         Washington, D.C. 20005


This report, as well as complete copies of our audit reports, are available on-line at:
                               http://treas.gov/tigta
